la
APPENDIX A - Memorandum Opinion, Of
The Ninth Circuit Court Of Appeals,
Appeal No. 15-15831 (Unpublished),
Filed June 11, 2019
NOT FOR PUBLICATION
United States Court of Appeals for the
9th Circuit
No. 15-15831
WILLIAM RUPERT
v.
SUSAN BOND, et al„
MEMORANDUM*
Appeal from the United States District Court
For the Northern District of California
Beth Labson Freeman, District Judge, Presiding
Submitted June 7, 2019**
Before: FARRIS, TROTT, and SILVERMAN,
Circuit Judges
William Rupert appeals pro se from the district
court’s judgment dismissing his action alleging
violations of state law and the Racketeer Influenced
and Corrupt Organizations Act (“RICO”) relating to
a dispute arising out of Oregon estate plans. We
have jurisdiction under 28U.S.C. §1291. We review
de novo. Hebbe v. Pliler, 627 F.3d 338, 341-42 (9th
Cir. 2010) (dismissal under Fed.R.Civ.P. 12(b)(6);

2a
Brayton Purcell LLP u. Recordon & Recordon, 606
F.3d 1124, 1127 (9th Cir. 2010) (personal
jurisdiction); Kearney v. Foley & Lardner, LLP, 590
F.3d 638, 643 (9th Cir. 2009) (dismissal based on
Noerr-Pennington). We affirm.
The district court properly determined that the
California based defendants are immune from
liability under the Noerr-Pennington doctrine
because Rupert failed to allege facts sufficient to
show that the defendants’ actions to defend against
Rupert’s prior lawsuit were objectively baseless or
deprived the litigation of its legitimacy. See id. at
643-644 (under Noerr-Pennington, “those who
petition any department of the government for
redress are generally immune from statutory
liability for their petitioning conduct” (citation
omitted)); see also Freeman v. Lasky, Haas & Cohler,
410 F.3d 1180 (9th Cir. 2005) (explaining
circumstances where the “sham litigation” exception
to the Noerr-Pennington doctrine applies).
The district court properly dismissed all claims
against the non-resident defendants for lack of
personal jurisdiction. See Walden u. Fiore, 134 S.Ct.
1115, 1121-23 (2014) (discussing the requirements
for specific personal jurisdiction and stating that
“the plaintiff cannot be the only link between the
defendants and the forum”); Schwarzenegger v.
Fred Martin Motor Co., 374 F.3d 797, 801-802 (9th
Cir. 2004) (requirements for general and specific
personal jurisdiction); Butcher’s Union Local No.
498, United Food & Comm. Workers v. SDC Inu.,
Inc., 788 F.2d 535, 539 (9th Cir. 1986) (requirements

3a
for nationwide service in an action alleging RICO
violations).
The district court did not abuse its discretion in
dismissing Rupert’s complaint without leave to
amend. See Cervantes v. Countrywide Home Loans,
Inc., 656 F.3d 1034, 1041 (9th Cir. 2011) (setting
forth standard of review and explaining that a
district court may dismiss without leave where
amendment would be futile); see also Chodos v.
West Publ’g Co., 292 F.3d 992, 1003 (9th Cir. 2002)
(district court’s discretion to deny leave to amend is
particularly broad when it has afforded plaintiff one
or more opportunities to amend).
The district court did not abuse its discretion by
denying Rupert’s motions under Fed.R.Civ.P 59(e)
and 60(b) because Rupert failed to demonstrate any
grounds for relief. See Sch. Dist. No. 1J, Multnomah
Cty., Or. V. ACandS, Inc., 5 F.3d 1255, 1262-63 (9th
Cir. 1993) (setting forth standard of review and
listing grounds warranting reconsideration under
Fed.R.Civ.P. 59(e) and 60(b)).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief or
arguments raised for the first time on appeal. See
Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009).
Plaintiffs request for oral argument (Docket
Entry No. 63) is denied.
AFFIRMED.

4a
* This disposition is not appropriate for
publication and is not precedent except as provided
by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case
is suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).

5a
APPENDIX B - Order of the Ninth Circuit
Court of Appeals, Appeal No. 15-15831,
Denial of Petition for Rehearing and
Petition for Rehearing En Banc,
Filed July 18, 2019
United States Court of Appeals for the
9th Circuit
No. 15-15831
WILLIAM RUPERT
v.
SUSAN BOND, et al.,
ORDER
Before: FARRIS, TROTT, and SILVERMAN,
Circuit Judges
The panel has voted to deny the petition for
rehearing and recommended denial of the petition
for rehearing en banc.
The full court has been advised of the petition
for rehearing en banc and no active judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing is DENIED and the
petition for rehearing en banc is DENIED.

6a
APPENDIX C - Order Granting Defendants’
Motions To Dismiss; Denying Defendants Gile
R. Downes And Schulte, Anderson, Downes,
Aronson & Bittner, P.C.’s Motion For
Sanctions, USDC for the Northern District of
California, Case No. 5:12-cv-05292-BLF;
Rupert v. Bond, et al., 68 F. Supp. 3d 1142,
Filed September 22, 2014
No. 12-cv-05292 BLF
WILLIAM RUPERT
v.
SUSAN BOND, et al.,
Order Granting Defendants’ Motions To
Dismiss; Denying Defendants Gile R. Downes
And Schulte, Anderson, Downes, Aronson &
Bittner, P.C.’s Motion For Sanctions
Before: Beth Labson Freeman, District Judge
This case involves a family dispute over the
Rupert siblings’ inheritance rights under their
parents’ wills and trusts. Plaintiff William Trick
Rupert brings this Second Amended Complaint
(“SAC”) against a number of Defendants, including
two of his siblings, several attorneys, and three law
firms, alleging claims under the federal Racketeer
Influenced and Corrupt Organizations (“RICO”) Act,
the Oregon RICO Act (“ORICO”), and common law
claims for conversion and intentional interference
with expected inheritance, arising out of a family

7a
dispute regarding the disbursement of his parents’
trust assets. The Defendants1 can be divided into
four groups: (1) the “Sibling Defendants,” including
Plaintiffs sister, Susan Bond, and brother, James
Rupert; (2) the “Downes Defendants,” including
attorney Gile Downes and his law firm, Schulte,
Anderson, Downes, Aronson & Bittner, P.C.; (3) the
“Zusman Defendants,” including attorney Edward
Zusman and his law firm, Markun Zusman &
Compton, LLC; and (4) the “Cartwright
Defendants,” including attorneys Matthew Whitman
and Michelle Johansson, as well as their law firm,
Cartwright Whitman Baer P.C.
Plaintiff categorizes his RICO allegations
against the Defendants into five stages, termed
“RICO Stage 1” through “RICO Stage 5,” and alleges
that the four groups of Defendants, through
repetition of a statement that Plaintiff terms “the
Big Lie” and various other acts, conspired to deprive
him of his inheritance. Before the Court are
Motions to Dismiss from each of the four Defendant
groups. The Zusman Defendants move to dismiss
for failure to state a claim upon which relief can be
granted, pursuant to Federal Rule of Civil
Procedure 12(b)(6). (ECF 114) The Downes
Defendants, Sibling Defendants, and Cartwright
Defendants each move to dismiss for lack of
personal jurisdiction, pursuant to Rule 12(b)(2).
1 In addition to the named Defendants, Plaintiff includes a
lengthy list of “non-party co-conspirators, or aiders and
abetters (sic).” Which includes a number of attorneys, two other
law firms, Plaintiffs mother, two Oregon state court judges,
and employees of several financial institutions. (SAC, ECF 106
15a-15m)

8a
(ECF 107, 111, 113) The Downes Defendants
separately move for Sanctions under Rule 11. (ECF
130)
Having considered the briefing and oral
argument of the parties, as well as the relevant law,
the Court GRANTS Defendants’ Motions to Dismiss,
WITH PREJUDICE. The Court, however, DENIES
the Downes Defendants’ Motion for Sanctions.
I.

BACKGROUND
A. Procedural History

Plaintiff filed his initial Complaint on October
12, 2012. (ECF l)2 Thereafter, Plaintiff filed a First
Amended Complaint (“FAC”) on October 26, 2012.
The four Defendant groups each moved to dismiss
the FAC on the same grounds as they do here: the
Zusman Defendants for failure to state a claim upon
which relief can be granted (ECF 50), and the
Downes, Sibling, and Cartwright Defendants for
lack of personal jurisdiction. (ECF 18, 33, 33) The
Downes Defendants also moved for sanctions (ECF
65) After briefing, Judge Lucy H. Koh granted the
Motions to Dismiss without prejudice (ECF 100),
and denied the Motion for Sanctions. (ECF 101).

2 Plaintiff is pursuing this action pro se. This Court construes
a pro se plaintiffs complaint so as to give the plaintiff the
benefit of any doubt. See, e.g., Morrison v. Hall, 261 F.3d 896,
899 n.2 (9th Cir. 2001) (citing Haines v. Kerner, 404 U.S. 519,
520 (1972), for the proposition that pro se pleadings are
“subject to a lesser standard than pleadings drafted by
lawyers”).

9a
Plaintiff filed the operative pleading, a
Corrected Second Amended Complaint (“SAC”), on
October 7, 2013. (ECF 106) The four groups of
Defendants again moved to dismiss: the Downes
Defendants (ECF 107), Sibling Defendants (ECF
111), and Cartwright Defendants (ECF 113)
claiming lack of personal jurisdiction, and the
Zusman Defendants arguing failure to state a claim.
(ECF 114) The Downes and Sibling Defendants, as
well as Plaintiff, filed Requests for Judicial Notice.
(ECF 109, 112, 118) Plaintiff opposed each Motion,
and all Defendants timely filed Replies.
After the Motions were fully briefed, on April 17,
2014, this case was reassigned to the undersigned,
who heard oral argument on the Motions on July 31,
2014. (See ECF 159)
B. Factual Allegations in the SAC
Having been granted leave to amend, Plaintiff
has added nearly forty pages of new allegations to
his SAC. (ECF 106) The Court has engaged in a
painstaking review of the now-110 page pleading,3
in order to ascertain whether Plaintiff has pled facts
sufficient to overcome the jurisdictional and factual
deficiencies cited in Judge Koh’s Order dismissing
the FAC.
3 Plaintiff includes, along with the SAC, two appendices that
outline every RICO and ORICO predicvate act he claims
occurred during the pendency of the alleged conspiracy, and the
party or parties Plaintiff claims participated in the act;
Appendix A, the “RICO - Predicate Acts Chart” (ECF 106 at
114-127), and Appendix B, the “ORICO - Predicate Acts
Chart.” (ECF 106 at 128-134)

10a

The Court describes Plaintiffs allegations below,
with particular emphasis on those allegations
newly-added to the SAC. The factual allegations are
presumed to be true for purposes of deciding the
Motions to Dismiss. See Bell Atl. Corp. u. Twombly,
550 U.S. 544, 555-56 (2007).
1.

Creation of the Rupert Trusts and
the Dispute over Trust Management

Samuel Rupert, Plaintiff s father, created a
revocable living trust in Michigan in 1995 (“the
Samuel Rupert Trust”), which made Irene Rupert,
his wife, the “life income beneficiary” and their three
children, Susan, William, and James, remainder
beneficiaries. (SAC If 35) Irene was the first
nominated successor trustee, and the three siblings
were named, “jointly, as co-alternate successor
trustees.” (Id. at 1f 36) That same year, Irene
Rupert also created a trust (“the Irene Rupert
Trust”). (Ed.) In 2004, Plaintiff alleges that both
trusts were amended to name Plaintiff as the “sole
alternate successor trustee, with Susan [Bond] as
the second choice, and James [Rupert] the third
[choice].” (Id. at ^f 37) In 2006, Samuel and Irene
Rupert moved to Oregon, and in October 2008,
Samuel Rupert died. (Id. at ^Hf 41-42)
After Samuel’s death, a dispute arose between
Plaintiff and Susan regarding the management of
the trust (SAC IHf 42-48), with Susan claiming that
she had documents “subsequent to the 2004
amended estate plans” which placed her in charge of
the trusts. (Id. at f 42) Among other acts, Plaintiff

11a
alleges that Susan “used fraud and deceit to trick
William into drafting a document entitled
Amendment to Trust Agreement” (id. at f 45), and
caused four brokerage accounts containing trust
assets “to be transferred from Michigan to
California.” (id. at f 47)
Plaintiff eventually informed his sister of her
duty to “submit periodic accountings” and Susan
provided such an accounting on May 12, 2009 (SAC
f f 48-49) On May 17, 2009, Plaintiff objected in
writing to the accounting as “inadequate and
insufficient” (id. at f 50), and demanded that Susan
“relinquish control [of the trust] to William, fully
account for her actions, and make whatever
restitution might be necessary.” (Id.) Susan refused,
and retained an attorney, Mr. Downes. (Id. at f f
51-53)
2.

“The Big Lie”

Plaintiff alleges that Susan and Downes
conspired to exploit Irene Rupert “through a scheme
to interfere with William’s Trusteeships and
expected inheritance” (id. at f 55), and that Downes,
through this scheme, “came up with the ‘Big Lie’
that has been so damaging to Plaintiffs trusteeship
interests.” (Id. at f 7) “The Big Lie,” according to
Plaintiff is the statement that Irene Rupert, and
not Plaintiff, was the trustee of the Samuel Rupert
Trust. (See id. at f 7; see also id. at f 56) Plaintiff
alleges that Downes stated “the Big Lie” in a June
10, 2009 letter sent to Plaintiff (“June 10 Letter,” id.
at Iff 58, 59a), and that “the Big Lie” was repeatedly
invoked by Downes and others during Plaintiffs

12a
various lawsuits regarding this dispute over the
Samuel Rupert Trust. (See, e.g., id. at
73, 74, 83,
108, 110) Plaintiff alleges that “the Big Lie” is
untrue because Irene Rupert “rejected here
nomination to be the successor trustee of the
Samuel Rupert Trust.” (Id. at 60a; see also id. at U
60c (“[T]here has never been one scintilla of
evidence to show a lawful acceptance [of her
nomination].”))
Plaintiff describes this June 10 Letter as
“threatening and fraudulent.” (SAC ^ 58) He states
that the misrepresentations contained in the letter
were relied upon by his mother, causing Irene
Rupert to retain Mr. Downes to prepare “drastically
different Oregon estate plans” that disinherited
William from “the combined assets of the late
Samuel and Irene Rupert.” (Id. at Tf 61)
3.

Plaintiffs First Lawsuit in this
District (Rupert l)

Following his dispute with Susan over the
management of the family’s trust assets, and the
exchange of letters between Plaintiff and Susan’s
attorneys, Plaintiff filed a tort suit in this District,
Rupert I, naming his sister, Mr. Downes, and the
Schulte Anderson Downes law firm as defendants.
(Id. T[ 64) This case was assigned to District Judge
Jeremy Fogel. Plaintiff thereafter joined Irene
Rupert as a Defendant. (Id. at
64, 69) Plaintiff
alleges that Mr. Downes and Susan, after learning
of the suit, schemed to “further deceive the late
Irene Rupert, by telling her William’s federal
lawsuit was unfounded, baseless and outrageous.”

13a
(Id. at ^66) Plaintiff further argues that Susan paid
Mr. Downes a “hidden bribe” of nearly $10,000 in
order to make material misrepresentations of fact to
Irene Rupert. (Id. at f 67)
Following the filing of an FAC, the Rupert I
Defendants filed a joint motion to dismiss for lack of
personal jurisdiction. Ms. Bond and Ms. Rupert
were represented by Mr. Zusman, among others,
and Mr. Downes and his firm were represented by
two firms who are alleged to be non-party co­
conspirators. (Id. at TI 71) Judge Fogel granted this
Motion.4 Plaintiff alleges that “knowingly false
declarations were procured and filed with the Court”
(id.), including the declarations of Irene Rupert,
Susan Bond, and Mr. Downes, which made a
number of statements regarding the identity of the
trustee of both family trusts, the location of trust
assets, and the trust administration activity, which
Plaintiff argues were false and amounted to
“extrinsic fraud upon the court.” (Id. at f 83)
Plaintiff argues that the identify and location of the
trustee and the location of trust assets are “material
jurisdictional facts” (id. at T| 72), and that but for
these misrepresentations regarding these
jurisdictional facts, Judge Fogel would never have
granted the motion to dismiss. (See SAC Tf 112(c);
see also Opp. To Cartwright Mot. To Dismiss at 22))
In responding to the instant Motions to Dismiss,
Plaintiff claims that these activities amount to

4 Judge Fogel’s short, 4-page order granting the motions to
dismiss, which Plaintiff himself describes as “a well-reasoned
ruling” (SAC K 81), is cited as Rupert v. Bond (Rupert I), 2010
WL 3618662 (N.D. Cal. Sept. 9, 2010).

14a
purposeful “targeting” of Plaintiff in California.
(See, e.g., Opp. To Sibling Mot. To Dismiss at 23)
4. The Oregon State Court
Proceedings
Irene Rupert died on March 12, 2010. (SAC T|
77) Three days later, Susan Bond commenced two
proceedings in Oregon state court, Case No.
CV10030497 (In the Matter of the Irene E. Rupert
Trust) and Case No. CV10030498 (In the Matter of
the Samuel J. Rupert Trust), seeking declaratory
judgments. (Id. at *[j 78) Plaintiff contends that
Susan Bond committed perjury in those proceedings
by falsely verifying that the administration of the
Samuel J. Rupert Trust was located in Oregon, and
not California. (Id.) Plaintiff states that he
“formally accepted his appointment to be successor
trustee,” after Irene Rupert allegedly declined her
appointment, and at that time moved the principal
place of administration of the trust to California.
(Id.)
Plaintiff alleges that Defendants schemed to use
“extrinsic and intrinsic fraud” to obtain declaratory
judgments from the Oregon courts (id. at ^ 79), and
that these fraudulent judgments were successfully
obtained: in one case because Plaintiff was unable
to present his case because the Defendants engaged
in a wrongful ex parte communication with the
judge, which resulted in what he terms a “Bum’s
Rush Ambush Expedited Bench Trial” (is. At f 87),
and in another case because the court believed false
statements made in a declaration by Susan Bond
that Irene Rupert was the successor trustee of the

15a
Samuel Rupert Trust. (Id. at 89) Plaintiff further
alleges that Defendant Whitman used extrinsic
fraud to trick an Oregon state court judge, Elizabeth
Welch, into “inadvertently” signing a General
Judgment that found in favor of Ms. Bond. (Id. at If
90) In the Irene Rupert Trust case, the court found
Plaintiff liable for attorney’s fees. (Id. at ^ 95)
After the completion of these two proceedings,
Plaintiff alleges that Defendants Susan Bond and
James Rupert succeeded in obtaining yet a third
“corrupt” judgment in Oregon courts through the
use of extrinsic fraud, in Case No. CV11050251, an
action commenced by Ms. Bond to remove Plaintiff
from “his capacity as Successor Trustee” (Id. at ^f 92;
see also id. at 94 (where Plaintiff contends that
James Rupert “fully supported all of the Oregon
litigation activities”))
5. Alleged Contacts with California
After The Oregon Proceedings
Following, the Oregon proceedings, Plaintiff
alleges that Susan “collaborated with Defendants
Whitman and Johansson to engage in wrongful
enforcement of judgment collection activities” by,
among other things, mailing Plaintiff a document
which demanded he pay the attorneys’ fees
judgment against him, and failing to domesticate
the judgment pursuant to the California SisterState Money Judgment Act. (See id. at
95, 99)
Plaintiff also alleges that Defendants Susan,
Johansson, Whitman, and Cartwright schemed to
misuse another Oregon writ of garnishment, dated
October 19, 2011, which targeted assets Plaintiff

16a
held in a T.D. Ameritrade account opened in Soquel,
California {id. at f 98), and resulted in Plaintiff
losing access to over $5,000. {Id.) Additionally,
Plaintiff contends that these Defendants caused
wrongful levies to be placed upon his California
checking account, resulting in the transfer of about
$7,000 out of that account, and a hold being placed
on his account that has “resulted in Plaintiff
William being unable to access Social Security
payments” directly deposited into that account. {Id.
at t 101) Plaintiff claims that these actions
amounted to Defendants Susan, Johansson,
Whitman, and Cartwright “scheming] to abuse the
process of the Sate of Oregon, and violate the laws of
the State of California” {id. at ^ 100), thus showing
that the Defendants targeted their activities at
California. {See, e.g. Opp. to Sibling Mot. to Dismiss
at 23)
II. LEGAL STANDARDS
A. Rule 12(b)(6)
A motion to dismiss under Rule 12(b)(6)
concerns what facts a plaintiff must plead on the
face of his claim. Under Rule 8(a)(2) of the Federal
Rules of Civil Procedure, a complaint must include
“a short and plain statement of the claim showing
that the pleader is entitled to relief.” Any complaint
that does not meet this requirement can be
dismissed pursuant to Rule 12(b)(6). In interpreting
Rule 8(a)’s “short and plain statement” requirement,
the Supreme Court has held that a plaintiff must
plead “enough facts to state a claim to relief that is
plausible on its face,” Bell Atl. Corp. V. Twombly,

17a
550 U.S. 544, 570 (2007), which requires that “the
plaintiff plead factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009). This standard does
not ask a plaintiff to plead facts that suggest he will
probably prevail, but rather “it asks for more than a
sheer possibility that a defendant has acted
unlawfully.” Id. (internal quotation marks omitted).
The Court must “accept factual allegations in the
complaint as true and construe the pleadings in the
light most favorable to the nonmoving party.”
Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025, 1031 (9th Cir. 2008). The Court is not,
however, forced to “assume the truth of legal
conclusions merely because they are cast in the form
of factual allegations.” Kane v. Chobani, Inc., 973
F.Supp.2d 1120, 1127 (N.D. Cal. 2014) (citing Fayer
v. Vaughn, 649 F.3d 1061, 1064 (9th Cir. 2011)).
The Court, however, should liberally construe
the pleadings of pro se plaintiffs. See, e.g., Balistreri
v. Pacifica Police Dep’t, 901 F.3d 696 (9th Cir. 1988).
Pro se plaintiffs “must follow the same rules of
procedure that govern other litigants”. Brown u.
Rumsfeld, 211 F.R.D. 601, 605 (N.D. Cal. 2002).
B. Rule 12(b)(2)
Plaintiff bears the burden of establishing that
the Court has personal jurisdiction over Defendants.
See, e.g., Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797, 800-01 (9th Cir. 2004). If a defendant
moves to dismiss under Rule 12(b)(2) for lack of
personal jurisdiction, a plaintiff must “come forward

18a
with facts, by affidavit or otherwise, supporting
personal jurisdiction.” Scott v. Breeland, 792 F.2d
925, 927 (9th Cir. 1986). When, as here, the motion
is based on written materials, rather than an
evidentiary hearing, Plaintiff “need only make a
prima facie showing of jurisdictional facts.”
Schwarzenegger, 374 F.3d 797, 800. “Uncontroverted
allegations in the complaint must be taken as true,”
id. at 800, though Plaintiff cannot “simply rest on
the bare allegations of tis complaint.” Amba Mktg.
Sys., Inc. v. Jobar Int’l, Inc., 551 F.2d 784, 787 (9th
Cir. 1977). Conflicts between facts contained within
the declarations or affidavits submitted by the
parties are resolved in the plaintiff s favor for
purposes of plaintiffs prima facie case. See, e.g.,
Mattel, Inc. u. Greiner & Hausser GmbH, 354 F.3d
857, 861-62 (9th Cir. 2003).
Federal courts, in the absence of a specific
statutory provision conferring jurisdiction, apply the
personal jurisdiction laws of the state in which they
sit. California’s long-arm jurisdictional statute is
“coextensive with federal due process requirements.”
Panaision Int’l, LP v. Toeppen, 141 F.3d 1316, 1320
(9th Cir. 1998). To exercise jurisdiction over a non­
resident defendant, the defendant must have
“minimum contacts” with the forum state such that
the exercise of jurisdiction ’’does not offend
traditional notions of fair play and substantial
justice.” Int’l Shoe Co. v. Washington, 326 U.S. 310,
316 (1945). Jurisdiction can be either general or
specific. See Helicopteros Nacionales de Colombia,
S.A. v. Hall, 466 U.S. 408, 415-16 (1984).
C. Leave to Amend

19a
Pursuant to Federal Rule of Civil Procedure
15(a), a court should grant leave to amend a
complaint “when justice so requires,” because “the
purpose of Rule 15 . . . [is] to facilitate decision on
the merits, rather than on the pleadings or
technicalities.” Lopez v. Smith, 203 F.3d 1122, 1127
(9th Cir. 2000) (en banc). The Court may deny leave
to amend, however, for a number of reasons,
including “undue delay, bad faith or dilatory motive
on the part of the movant, repeated failure to cure
deficiencies by amendments previously allowed,
undue prejudice to the opposing party by virtue of
allowance of the amendment, [and] futility of
amendment” Eminence Capital, LLC. Aspeon, Inc.,
316 F.3d 1048, 1052 (2003) (citing Foman v. Davis,
371 U.S. 178, 182 (1962) (emphasis added).
D. Judicial Notice
There are four Requests for Judicial Notice
before the Court with regards to the instant
motions. The Downes Defendants (ECF 109), the
Sibling Defendants (ECF 112), and Plaintiff (ECF
118) each submit Requests for Judicial Notice with
regard to the Motions to Dismiss. The Downes
Defendants further submit a Request for Judicial
Notice with regard to their Motion for Sanctions.
(ECF 132) The Court considers each in turn.
In general, a court should not look beyond the
four corners of a complaint when ruling on a motion
to dismiss. See, e.g., Swartz v. KPMG, LLP, 476
F.3d 756, 763 (9th Cir. 2007). Pursuant to Federal
Rule of Evidence 201, however, the Court is
permitted to take judicial notice of adjudicative facts

20a
“not subject to reasonable dispute,” and “capable of
accurate and ready determination by resort to
sources whose accuracy cannot reasonably be
questioned.” Fed.R.Evid. 201(b); see also Mack v. S.
Bay Beer Distribs., 798 F.3d 1279, 1282 (9th Cir.
1986) (permitting a court to take judicial notice of
“matters of public record”).
The Downes Defendants request the Court take
judicial notice of thirteen documents, including
pleadings and declarations publicly filed with
Oregon and California courts (ECF 109 Exhs. 1, 6, 8,
11, 12, and 13), orders and judgments issued by said
courts (id. Exhs. 2, ,4, 5, 7, 9, and 10), and an excerpt
from a transcript of proceedings in In the Matter of
Irene E. Rupert Trust (id. Exh. 3). (See ECF 109 at
2-3) A court may take judicial notice of documents
filed in judicial or administrative proceedings, see
United States ex rel. Robinson Rancheria Citizens
Council v. Borneo, Inc., 971 F.2d 244, 248 (9th Cir.
1992), and documents that are public record. See
Mack, 798 F.2d 1279, 1282. As such the Downes
Defendants’ Request for Judicial Notice is
GRANTED.
The Sibling Defendants ask the Court to take
judicial notice of two documents, the FAC filed in
Rupert I and Judge Fogel’s Order granting the
Motion to Dismiss in Rupert I. (ECF 112). These
documents are both matters of public record. As
such, the Court GRANTS the Sibling Defendants
Request for Judicial Notice. See Mack, 798 F.2d
1279, 1282.

21a
Plaintiff asks the Court take judicial notice of
five documents: (1) an email purportedly sent from
James Rupert to Plaintiff on August 31, 2010; (2) a
copy of the General Judgment issued in In the
Matter of the Irene E. Rupert Trust; (3) a copy of the
Declaration of James Rupert, filed in In the Matter
of the Irene E. Rupert Trust; (4) an order granting
reconsideration in the Oregon Court of Appeal, filed
on March 7, 2013, regarding In the Matter of the
Irene E. Rupert Trust; and (5) an order granting
reconsideration in the Oregon Court of Appeal, also
filed on March 7, 2013, regarding two other cases,
including In the Matter of the Samuel J. Rupert
Trust.
The Court GRANTS Plaintiffs request
regarding Exhibits 2-5 because they are matters of
public record. See Mack, 798 F.2d 1279, 1282.
Plaintiff contends that the Court should judicially
notice Exhibit 1, the James Rupert email, because
the document is referenced in the SAC and the
Defendants do not call into question its authenticity.
Plaintiff is correct that the Sibling Defendants do
not object to this Request for Judicial Notice. In this
Circuit, “documents whose contents are alleged in a
complaint and whose authenticity no party
questions, but which are not physically attached to
the pleading, may be considered in ruling on a Rule
12(b)(6) motion to dismiss.” Branch v. Tunnell, 14
F.3d 449, 454 (9th Cir. 1994), overruled on other
grounds by Galbraith v. Cnty. Of Santa Clara, 307
F. 3d 1119 (9th Cir. 2002). Plaintiff does reference
the James Rupert email in his SAC and its
Appendix (see SAC ^ 94 n.30 (discussing an email
sent from James to Plaintiff, though not stating the

22a
date of that email); see also SAC App’x A at 12)
Therefore, Plaintiffs request that the Court notice
Exhibit 1 falls within the ambit of the rule
articulated in Branch, and the Court GRANTS
Plaintiffs Request for Judicial Notice in its entirety.
Finally, the Downes Defendants seek judicial
notice of sixteen documents with regard to their
Motion for Sanctions. (See ECF 132) Several of
these requests overlap with their Request for
Judicial Notice filed with their Motion to Dismiss.
The documents the Downes Defendants seek judicial
notice for in this context include: pleadings and
papers filed with courts in Oregon and California
(id. Exh. 1, 6, 8, 11, 12, 13, 15 and 16); orders and
judgments issued by courts in Oregon and California
(id. Exhs. 2, 4, 5, 7, 9, and 10); a copy of a transcript
from proceedings in In the Matter of the Irene E.
Rupert Trust (id. Exh. 3); and a copy of a page of the
California Vexatious Litigant List, as it existed on
November 1, 2012 (id. Exh. 14). These documents
are either documents in the public record (id. Exhs.
1-13, 15, 16), see Mack, 798 F.2d 1279, 1282, or is
information contained on a government website (id.
Exh. 14). See Daniels-Hall v. Nat’l Educ. Assn, 629
F.3d 992, 998-99 (9th Cir. 2010) (judicially noticing
information contained on a government website
when neither party disputes either the website’s
authenticity or the accuracy of the information
displayed therein). The Court GRANTS the Downes
Defendants’ Request for Judicial Notice with regard
to the Motion for Sanctions.

23a
The Court thus GRANTS each of the four
Requests for Judicial Notice, and will consider these
documents where applicable and relevant.
III. DISCUSSION
The Court is presented with four Motions to
Dismiss and a Motion for Sanctions. The Court will
first consider the Zusman Defendants’ Motion to
Dismiss for failure to state a claim. Then, the Court
will consider the three Motions to Dismiss for lack of
personal jurisdiction. Finally, the Court will
consider the Downes Defendants’ Motion for
Sanctions.
A. The Zusman Defendants’ Motion to
Dismiss
The Zusman Defendants move this Court to
dismiss Plaintiffs claims against them under two
theories: first, that Plaintiffs federal RICO claims
are barred by the Noerr-Pennington doctrine, in that
Plaintiffs RICO claims are premised entirely on the
Zusman Defendants’ legal representation of Susan
Bond and Irene Rupert in Rupert I, which constitute
protected petitioning activity; and second, that
Plaintiffs other federal RICO claim, which does not
involve the Rupert I litigation, fails to allege
fraudulent conduct with the requisite specificity, as
required under the heightened pleading
requirements of Rule 9(b). Plaintiff, in opposition,
contends that the “sham litigation” exception to the
Noerr-Pennington doctrine precludes the Zusman
Defendants from invoking the doctrine’s protection,
and that he has pled his RICO claims with the

24a
necessary specificity. The Court ultimately agrees
with the Zusman Defendants, and GRANTS their
Motion to Dismiss.
Before engaging in the legal analysis, the Court
first outlines the alleged wrongful activities that
Plaintiff pleads against the Zusman Defendants.5
In his SAC, Plaintiff alleges that the Zusman
Defendants participated in the following actions: (1)
filing the Joint Motion to Dismiss for lack of
personal jurisdiction before Judge Fogel in Rupert I
(see, e.g., SAC
71, 81, 108, 112); (2) obtaining
the declarations of Irene Rupert and Susan Bond,
which stated that Irene Rupert was the trustee of
the Samuel Rupert Trust and that the trust assets
of the Samuel Rupert Trust were located in Oregon,
and filing said declarations with the court in Rupert
I (see, e.g., SAC 1f1f 72, 83, 108, 112); (3) making
material misrepresentations of fact before Judge
Fogel at the hearing on the Joint Motion to Dismiss
in Rupert I (see, e.g., SAC If 74); and (4) “schemfing]”
alongside Defendants Susan Bond, Gile Downes,
and Matthew Whitman, “to wrongfully use . . .
extrinsic and intrinsic fraud to obtain corrupt
Oregon Trust Code declaratory judgments”
concerning the Samuel Rupert and Irene Rupert
trusts. (SAC f 79)6
5 These allegations include any activities ascribed to Mr.
Zusman himself, or the Markun Zusman law firm generally.
6 Plaintiff describes the Zusman Defendants’ alleged
participation in predicate acts on pages 6 and 7 of Appendix A
(predicate acts 23-25 and 32), and page 4 of Appendix B
(predicate acts 16-18). However, the allegations in the two
appendices do not include every allegation Plaintiff alleges in

25a

With this factual backdrop, the Court considers
the Zusman Defendants’ arguments in turn.
1.

The Noerr-Pennington Doctrine
Bars All of Plaintiffs Claims Arising
From Activities Undertaken by the
Zusman Defendants in Rupert I
The Zusman Defendants argue that all of their
actions as counsel in Rupert I are protected
petitioning activities under the Noerr-Pennington
doctrine. (See, e-g-> Zusman Mot. To Dismiss, ECF
114 at 4) Noerr-Pennington stands for the
proposition that “those who petition any department
of the government for redress are generally immune
from statutory liability for their petitioning
conduct.” Sosa v. DirectTV, Inc., 437 F.3d 923, 929
(9th Cir. 2006) (citing both Eastern R.R. Presidents’
Conference v. Noerr Motor Freight, Inc., 365 U.S.
127 (1961), and United Mine Workers of Am. v.
Pennington, 381 U.S. 657 (1965)). This doctrine
arose in the context of antitrust law, see, e.g., Noerr,
365 U.S. 127, but this Circuit has applied its
protections to RICO actions. See, e.g., Kearney v.
Foley & Lardner, LLP, 590 F.3d 638, 643-48 (9th Cir.
2009) (applying Noerr-Pennington in an action
brought against attorneys and law firms under
RICO); see also Winters v. Jordan, 2010 WL
the SAC - for example, it does not include the alleged scheme
to obtain Oregon declaratory judgments outlined in paragraph
79 of the SAC - and thus the Court engaged in a reading of the
entire SAC in order to determine the fullest extent of Plantiff s
claims against the Zusman Defendants and the three other
Defendant groups.

26a
2836834, at *8 (E.D. Cal. July 20, 2010) (“The Noerr Pennington doctrine applies to petitioning activity
that gives rise to ... a claim brought pursuant to
the RICO statute.”). Such protected petitioning
activity includes representing a party in a court
proceeding - either in bringing suit or defending
against a suit brought by another party - and filing
papers with a court. See, e.g., Freeman v. Lasky,
Haas & Cohler, 410 F.3d 1180, 1184 (th Cir. 2005)
(defining petitioning activity as any “communication
to the court,” and finding that Noerr-Pennington
applies to defensive pleadings, ‘because asking a
court to deny one’s opponents’ petition is also a form
of petition”). “Conduct incidental to a petition is
protected by Noerr-Pennington if the petition itself
is protected.” Id. (citing Thoefel v. Farey-Jones, 359
F.3d 1066, 1078 (9th Cir. 2004)).
Noerr-Pennington’s protections are not absolute,
however, and there exists a “sham litigation”
exception to the doctrine. See, e.g., Freeman, 410
F.3d 1180, 1183-84 (holding that Noerr-Pennington
immunity “is not so broad as to cover all litigation:
‘Sham’ petitions don’t fall within the protection of
the doctrine”). Plaintiff contends that the Zusman
Defendants’ activities in Rupert I constituted “sham
litigation.” (See, e.g., Opp. To Zusman Mot. To
Dismiss at 9-10)7 The sham litigation exception has
three formulations:
7 Plaintiff further asserts that the Court cannot determine
whether or not the sham litigation exception applies in the
context of a Rule 12(b)(6) motion to dismiss, contending that
the Ninth Circuit has held that such a determination cannot be
made at the pleadings stage. (See, Opp. To Zusman Mot. To

27a

First, if the alleged anticompetitive behavior
consists of bringing a single sham lawsuit
(or a small number of such suits), the
antitrust plaintiff must demonstrate that
the lawsuit was (1) objectively baseless, and
(2) a concealed attempt to interfere with the
plaintiffs business relationships.
Second, if the alleged anticompetitive
behavior is the filing of a series of lawsuits,
“the question is not whether any one of them
has merit — some may turn out to, just as a
matter of chance - but whether they are
brought pursuant to a policy of starting legal
proceedings without regard to the merits
and for the purpose of injuring a market
rival.”
Finally, in the context of a judicial
proceeding, if the alleged anticompetitive
behavior consists of making intentional
misrepresentations to the court, litigation
can be deemed a sham if “a party’s knowing
fraud upon, or its intentional

Dismiss at 10-11) Plaintiff cites for this proposition
Hydranautics v. FilmTec Corp., 70 F.3d 533, (9th Cir. 1995). In
Hydranautics, however, the circuit court, recognizing that “the
district court did not reach th[e] issue” of Noerr-Pennington
immunity, id. at 538, declined to affirm on that ground. The
Ninth Circuit has, contrary to Plaintiffs argument, upheld
dismissals under Noerr-Pennington immunity in a number of
cases more recent that Hydranautics. See, e.g., Freeman, 410
F.3d 1180 (“Noerr-Pennington immunity is a sufficient ground
to dismiss the complaint as to all defendants.”).

28a
misrepresentations to, the court deprive the
litigation of its legitimacy.”
Kottle v. Nw. Kidney Ctrs., 146 F.3d 1056, 1060
(9th Cir. 1998) (internal citations omitted).
Judge Koh’s Dismissal Order found that none of
the three formulations of the sham litigation
exception applied in this case. (Dismissal Order,
EOF 100 at 13-15) This Court finds that Plaintiff
has not stated any additional facts in the SAC that
would merit a finding that the representation
mounted by Defendant in Rupert I was a sham. As
to the first formulation, the Zusman Defendants
succeeded in obtaining a dismissal in Rupert I. As
such, their actions cannot be viewed as “objectively
baseless.” See Professional Real Estate Investors,
Inc. v. Columbia Pictures Indus., 508 U.S. 49, 60 n.5
(1993) (“A winning lawsuit is by definition a
reasonable effort at petitioning for redress and
therefore not a sham.”) (emphasis added). The
second formulation is inapplicable to this case, as it
applies only to instances when a series of lawsuits
or petitions are brought “for the purpose of injuring
a market rival.” Kottle, 146 F.3d 1056, 1060 (citing
USS-POSCO Indus, v. Contra Costa Cnty. Bldg. &
Constr. Trades Council, 31 F.3d 800, 810-11 (9th Cir.
1994)). As Judge Koh’s Dismissal Order clearly
states, “Plaintiffs interest in his inheritance Q has
no relationship to market competition or business [,]
[rjather, it is a personal financial relationship.”
(ECF 100 at 14).
Plaintiff contends that the third formulation of
the sham exception should apply in this case,

29a
because the Zusman Defendants in Rupert I
“concealed and misrepresented the true identity of
the trustee of the Samuel Rupert Trust, the true
location of this successor trustee, and the true
location of the trust assets which were in dispute.”
(Opp. To Zusman Mot. To Dismiss at 11) Plaintiff
argues that these “significant jurisdictional facts”
were relied on by Judge Fogel in granting the
Motion to Dismiss in Rupert I, and that these
misstatements thus constituted a fraud upon the
court that renders the Zusman Defendants’
representation a sham. (Id. at 12, 13) Judge Koh’s
Dismissal Order found that Plaintiff had not made
an adequate showing with regard to any of these
alleged misrepresentations. (Dismissal Order at 1415) This Court finds that Plaintiff still fails to make
such a showing, for the reasons set forth below.
First, Plaintiff fails to show how Judge Fogel in
any way relied on the alleged misrepresentations
Plaintiff outlines when Judge Fogel decided Rupert
I. Plaintiff insists, repeatedly, that “Judge Fogel
was deliberately misled” (see, e.g., SAC If 27), and
that these misrepresentations “caused Judge Fogel
to grant [the] Motion to Dismiss, which most likely
would have been denied, if Judge Fogel had realized
that he was being misled.” (Id.)
A review of Rupert I finds absolutely no support
for this allegation. In Rupert I, the Court, applying
the familiar three-prong test to determine specific
jurisdiction, found that:
Defendants did communicate with William,
who resides in California. However, the

30a
communications concerned the estate
planning decisions of Irene, an Oregon
resident. Susan’s alleged mistreatment of
Irene and alleged mismanagement of trust
funds occurred in Oregon. Downes and the
members of his law firm are Oregon
attorneys; their communications with
William related solely to their
representation of Irene under Oregon law.
None of Defendants’ alleged conduct has any
nexus with California other than the fact
that William happens to reside in California.
Under these circumstances, the Court
concludes that the “effects” test is not
satisfied, and that it would be unreasonable
for it to exercise personal jurisdiction over
Defendants.
Rupert v. Bond (Rupert I), 2010 WL 3618662, at
*4 (N.D. Cal. Sept. 9, 2010)
Rupert I makes no mention of Irene Rupert as
the alleged successor trustee, but rather of Susan
Bond “misleading] William as to the scope of
[Susan’s] authority” to manage Irene Rupert’s
financial affairs. Id. at *2. The decision further
does not rely on the location of the trustee or any
trust assets, contrary to Plaintiffs assertions. Even
if it had, Plaintiff does not make a showing that
Defendants misled the Rupert I court regarding the
location of these assets — he insists that the
brokerage accounts holding some of the assets of the
Samuel Rupert Trust were located in California
because they were held in Charles Schwab accounts,
and Charles Schwab is headquartered in San

31a
Francisco. (SAC Tf 47) Judge Koh’s Dismissal Order
noted that the FAC “allege[d] no facts that Susan or
Irene were in California at the time the accounts
were allegedly opened,” and “no support for the
proposition that simply because a department is
headquartered in California, all accounts with that
department are held there as well.” (Dismissal
Order at 14) Plaintiff makes no attempt in his SAC
to cure these factual deficiencies. Instead, he
merely repeats his allegation that these, trust funds
were “moved” from Michigan to California simply
because brokerage accounts were opened with
Charles Schwab, a company based in San Francisco.
(See, e.g., SAC Ilf 34, 47, 72)
Plaintiff asks this Court to read into Judge
Fogel’s reasoned decision a “blind trust” of the
Zusman Defendants’ arguments, which prevented
him from coming to what Plaintiff views to be the
correct decision. (Opp. To Zusman Mot. To Dismiss
at 12) This Court refuses to do so. Plaintiff clearly
disagrees with the ruling in Rupert I. Plaintiff has
not, however, provided this Court any evidence that
the rationale undergirding Judge Fogel’s ruling was
in any way caused by the alleged
misrepresentations on the part of the Zusman
Defendants. Instead, Plaintiff just repeatedly
insists that these misrepresentations prevented
Judge Fogel from making the decision that Plaintiff
wishes he had made - insistences that have already
once been rejected by this district in Judge Koh’s
Dismissal Order.
The Court finds that Plaintiff has not shown
that the sham litigation exception to Noerr-

32a
Pennington applies here. He has made only vague
allegations of misrepresentations, which are
“insufficient to overcome Noerr-Pennington
protection,” Kottle, 146 F.3d 1036, 1046, and the
misrepresentations he does allege were clearly not
relied upon by Judge Fogel in his written order
granting the Joint Motion to Dismiss. See Rupert I
at *4. As such, any alleged wrongdoing related to
the Zusman Defendants’ petitioning activity in
Rupert I - which includes the filing of the Motion to
Dismiss, the obtaining and filing of the Irene Rupert
and Susan Bond declarations, and the statements
made during oral argument — are all entitled to
immunity under Noerr-Pennington. See Freeman,
410 F.3d 1180, 1184.
2.

Plaintiff Has Not Pled with the
Requisite Specificity His Allegation
That Zusman “Schemed” to Obtain
the Oregon Declaratory Judgments

Judge Koh’s Dismissal Order found that
Plaintiff had not pled with the requisite specificity
his claims that the Zusman Defendants “violated
RICO in other ways” beyond their activities in
Rupert I. In the SAC, Plaintiff makes an allegation
implicating one of the Zusman Defendants that goes
beyond the representation of Susan Bond and Irene
Rupert in Rupert I. Plaintiff alleges, in paragraph
79, that Mr. Zusman “schemed ... to wrongfully
use, and in fact did wrongfully us, both extrinsic and
intrinsic fraud to obtain corrupt Oregon Trust Code
declaratory judgments, concerning both [the Samuel

33a
Rupert and Irene Rupert] trusts.” (SAC t 79)8 The
Court finds that Plaintiff has not pled this
allegation with the necessary specificity.9
Allegations under RICO must meet the
heightened pleading requirements of Rule 9(b),
which demands that a party “state with
particularity the circumstances constituting fraud.”
Fed.R.Civ.P. 9(b); see Moore v. Kayport Package
Express, Inc., 885 F.2d 531, 541 (9th Cir. 1989) (“We
have applied the particularity requirements of Rule
9(b) to RICO claims”) Rule 9(b) requires that the
pleader “state the time, place, and specific content of
the false representations, as well as the identities of
the parties to the misrepresentation.” Schreiber
Distrib. V. Serv-Well Furniture Co., 806 F.2d 1393,
1400 (9th Cir. 1986). Plaintiff has not done so.
Plaintiffs single allegation in paragraph 79 fails
to state the time, place, or specific content of the
purported “scheme,” though it does allege the
identities of the parties. (SAC 79) Plaintiff
merely states that a series of emails were
8 Plaintiff includes with this allegation a footnote which
describes activity undertaken by several Defendants in this
matter, but which does not mention Mr. Zusman or the Markun
Zusman Compton firm. (See SAC 1 79 n.22 (mentioning
activities by Susan Bond, Matthew Whitman, and non-party
Judge Maurer of the Clackamas Circuit Court in Oregon))
9 In his briefing, Plaintiff contends that his allegations
regarding the Zusman Defendants’ conduct regarding thenrepresentation in Rupert I are pled with the requisite
specificity under Rule 9(b). As the Court finds that this Rupert
/-related conduct falls under the protection of NoerrPennington, it does not reach this question.

34a
exchanged, sometime after March 15, 2010,10 “to
wrongfully use . . . both extrinsic and intrinsic fraud
to obtain corrupt Oregon Trust Code declaratory
judgments concerning both Trusts.” (Id.) Plaintiff
does not state with any particularity the content of
the communications that comprised this alleged
scheme. Such an “entirely general” allegation is
insufficient for purposes of Rule 9(b) pleading in the
context of a RICO claim. See Alan Neuman Prods.,
Inc. v. Albright, 862 F.2d 1388, 1392 (9th Cir. 1988)
(finding insufficient a pleading that fails to allege
any “specifics of. . . [the] nature of the alleged
communications,” and holding that such generalities
constituted a “fatal defect” in the plaintiffs
pleading).
Plaintiff was clearly informed by Judge Koh’s
Dismissal Order that any claims brought under
RICO would need to be pled with the specificity
required of Rule 9(b). (See Dismissal Order at 15)
Plaintiff has not done so, instead choosing to couch
his single non-Rupert /-related claim in vague
allegations of “extrinsic fraud” and a “scheme G”
between Defendants Zusman, Downes, Whitman,
and Susan Bond. (SAC If 79) Such mere generalities
are fatal to Plaintiffs additional RICO claim against
the Zusman Defendants.
3.
Action,

Lacking Jurisdiction Over
Plaintiffs
Federal Causes of
the Court Does Not Exercise
Supplemental Jurisdiction

10 Plaintiff does not include a date with this allegation, but does
state a date in paragraph 78, March 15, 2010, and opens
paragraph 79 with the word “thereafter.” (SAC
78-79)

35a
Over
Against

Plaintiffs State Law Claims
the Zusman Defendants

Plaintiff alleges in the SAC, as he did in the
FAC, that this Court has supplemental jurisdiction
over his pendent state law claims, arising under
Oregon and California law, pursuant to 28 U.S.C. §
1367. (See, e.g., SAC ^ 1 (“[T]his Court also has
supplemental jurisdiction over plaintiff William’s
state law claims under 28 U.S.C. § 1367.”))
“A court may decline to exercise supplemental
jurisdiction over state-law claims once it has
dismissed all claims over which it has original
jurisdiction.” Ove v. Gwinn, 264 F.3d 817, 826 (9th
Cir. 2001) (citing 28 U.S.C. § 1367(c)(3)).
All of Plaintiffs federal claims against Edward
Zusman and the Markun Zusman law firm are
either barred by Noerr-Pennington or lack the
particularity required under Rule 9(b). Plaintiff has
been given the opportunity to amend his allegations,
and has not remedied the factual and jurisdictional
deficiencies outlined by the Court in Judge Koh’s
Dismissal Order. This Court further declines to
exercise supplemental jurisdiction over Plaintiff s
state law claims, pursuant to 28 U.S.C. § 1367(c)(3).
As such, Plaintiffs SAC is DISMISSED WITH
PREJUDICE as to the Zusman Defendants.
B. The Sibling, Downes, and Cartwright
Defendants’ Motions to Dismiss
Plaintiff alleges that this Court has jurisdiction
over the remaining three groups of Defendants for

36a
two reasons: first, that the “ends of justice”
jurisdiction provision of RICO (see 18 U.S.C. §
1965(b)), which permits a court to exercise
jurisdiction in certain instances over non-resident
participants in a RICO conspiracy even if the court
otherwise lacks personal jurisdiction over the
defendant, applies here; and second, that the Court
has specific jurisdiction over each Defendant group
under the three-prong effects test articulated in
Colder u. Jones, 465 U.S. 783 (1984).11 The Downes,
Cartwright, and Sibling Defendants all move
separately to dismiss Plaintiffs SAC for lack of
personal jurisdiction.
The Court first considers Plaintiffs “ends of
justice” jurisdiction argument. The Court then
considers the actions that Plaintiff alleges give rise
to specific jurisdiction over the remaining three
Defendant groups. The Court finds neither
persuasive, and holds that it lacks personal
jurisdiction over the remaining Defendants.
1.

This Court Does Not Have
Jurisdiction Over the Remaining
Defendants Under The Ends of
Justice Provision of RICO, 18 U.S.C.
§ 1965(b)
Under 18 U.S.C. § 1965(b), a court may exercise
personal jurisdiction over non-resident participants
11 Plaintiff does not allege that this Court has general
jurisdiction over the Sibling, Downes, or Cartwright
Defendants. (See Opp. To Cartwright Mot. To Dismiss at 4;
Opp. To Sibling Mot. To Dismiss at 4; Opp. To Downes Mot. To
Dismiss at 3)

37a
in an alleged RICO conspiracy, even if those parties
would otherwise not be amenable to jurisdiction in
that court. This so-called “ends of justice” provision
permits a court, consistent with the purpose of the
RICO statute, to “enable plaintiffs to bring all
members of a nationwide RICO conspiracy before a
court in a single trial.” Butcher’s Union Local No.
498, United Food & Comm. Workers v. SDC Inv.,
Inc. (Butcher’s Union), 788 F.2d 535, 538 (9th Cir.
1986). This power is not unlimited, however. In
order for a Court to exercise personal jurisdiction
through the “ends of justice” provision, “the court
must have personal jurisdiction over at least one of
the participants in the alleged multi-district
conspiracy and the plaintiff must show that there is
no other district in which a court will have personal
jurisdiction over all of the alleged co-conspirators.”
Id. at 539 (emphasis added). The burden is on the
plaintiff to “adduce evidence that there is no other
district” that could hale all of the alleged co­
conspirators before its courts. See Barantsevich v.
VTB Bank, 954 F.Supp.2d 972, 989, 990 (C.D. Cal.
2013) (“While it is not clear that there is another
district that could exercise jurisdiction over all
defendants, plaintiff has the burden of showing
affirmatively that this is the case.”).
In Judge Koh’s Dismissal Order, the Court
informed Plaintiff that, though it had jurisdiction
over Mr. Zusman because he is a California
resident, that Plaintiff had not sufficiently alleged
that no other district could exercise jurisdiction over
all the alleged co-conspirators. Judge Koh stated:

38a
Despite Plaintiffs claims that no other
district will have jurisdiction over Zusman,
the FAC states that he was a member of a
conspiracy with six Oregon defendants, see
FAC f 8, and that his involvement in the
conspiracy was his representation of two
Oregon residents in connection with an
estate established under Oregon law, id.
Moreover, Susman’s law firm has an office in
Oregon. See Downes Reply at 4.
Accordingly, the Court finds that an
Oregon court may have jurisdiction over all
of the RICO defendants. As such,
jurisdiction under 18 U.S.C. § 1965(b) is
inappropriate.
(Dismissal Order at 21)
Defendants contend that Plaintiff has not cured
this deficiency, and does not sufficiently allege that
no other district, namely the District of Oregon,
could exercise jurisdiction over all of the alleged
RICO co-conspirators. In response, Plaintiff
contends that he has alleged enough facts to show
that Edward Zusman is not subject to personal
jurisdiction in Oregon. The Court agrees with
Defendants.
Plaintiffs SAC states that “Defendant Zusman’s
contacts with the state of Oregon are not sufficient
to allow that state to exercise personal jurisdiction
over him.” (SAC If 8) To support this conclusion,
Plaintiff contends that, though Mr. Zusman’s firm
has an office in Portland, Oregon, Zusman himself is
“only affiliated with the San Francisco, California,

39a
partnership branch location” (id.), is licensed to
practice law “only in California” (id.), and that there
is “no reason to believe” that the Oregon attorneys
affiliated with Markun Zusman’s Oregon office were
involved in the alleged RICO conspiracy. (Id.)
Plaintiffs pleadings, though not quite cursory,
do not meet his burden to show affirmatively that
the District of Oregon cannot exercise jurisdiction
over Mr. Zusman. The factual circumstances
surrounding Plaintiffs expansive allegations
against Mr. Zusman prevent the Court from
affirmatively finding that jurisdiction in Oregon
would be unavailable. Plaintiff alleges, as he did in
his FAC, that Mr. Zusman was a member of a
conspiracy with Oregon defendants, which involved
his representation of two Oregon residents - Susan
Bond and Irene Rupert - in connection with an
Oregon estate. Mr. Zusman is a named partner in a
law firm with an office in Oregon - mere allegations
that Mr. Zusman is only registered to practice in
California, and that he is “only affiliated with the
San Francisco” location of his firm, are not sufficient
to meet Plaintiffs affirmative obligation to show
that Mr. Zusman could not be haled to court in
Oregon for his contacts in this lawsuit: particularly
as this Circuit has held that being an out-of-state
attorney is insufficient by itself to preclude personal
jurisdiction over a lawyer. See, e.g., Sher v.
Johnson, 911 F.2d 1357, 1363 (9th Cir. 1990).
A plaintiff seeking to exercise jurisdiction
pursuant to RICO’s “ends of justice” provision faces
a high hurdle. It is the plaintiffs burden to
affirmatively show that no other district could

40a
exercise jurisdiction over all the alleged co­
conspirators. Here, Plaintiff contends that Mr.
Zusman’s contacts with Oregon “are insufficient” for
him to be subject to personal jurisdiction there.
(SAC t 8) This Court finds that Plaintiff has not
stated enough facts by which this Court could find
that the District of Oregon could not exercise
jurisdiction over Mr. Zusman, a named partner in a
law firm with an office in Oregon, who allegedly
participated in a conspiracy regarding an Oregon
estate while representing two Oregon residents. As
such, the Court finds that “there is no indication in
this case that justice requires” the exercise of
jurisdiction in this district, see LeDuc v. Ky. Cent.
Life Ins. Co., 814F.Supp. 820, 826 (N.D. Cal. 1992),
and declines to exercise jurisdiction under 18 U.S.C.
§ 1965(b). Jurisdiction over the three remaining
groups of Defendants must be determined based on
a traditional specific jurisdiction inquiry.
2.

Plaintiff Fails to Show that the
Sibling, Downes, and Cartwright
Defendants are Subject to Specific
Jurisdiction in this Court

Plaintiff contends that this Court has specific
jurisdiction over each of the three remaining
Defendant groups. The Ninth Circuit has
established a three-prong test for determining
whether a non-resident defendant is subject to
specific personal jurisdiction:
(1) The non-resident defendant must
purposefully direct his activities or
consummate some transaction with the

41a
forum or resident thereof; or perform some
act by which he purposefully avails himself
of the privilege of conducting activities in
the forum, thereby invoking the benefits and
protections of its laws;
(2) the claim must be one that arises out of
or relates to the defendant’s forum-related
activities;
(3) the exercise of jurisdiction must comport
with fair play and substantial justice, i.e., it
must be reasonable.
Schwarzenegger v. Fred Martin Motor Co., 374 F.3d
797, 802 (9th Cir. 2004) (citing Lake u. Lake, 817
F.2d 1416, 1421 (9th Cir. 1987). Plaintiff bears the
burden of proof with regards to the first two
elements, see, e.g., Sher v. Johnson, 911 F.2d 1357,
1361 (9th Cir. 1990), and, if Plaintiff satisfies his
burden at to those elements, the burden then shifts
to Defendants to “present a compelling case” that
exercising jurisdiction over them would be
unreasonable. See, e.g., Burger King Corp.
Rudzewicz, 471 U.S. 462, 476 (1985).
With regards to the first prong, when a case
sounds in tort, the Court is concerned with whether
the Defendants have “purposefully directed” their
activities at the forum state. To determine
purposeful direction, the Court engages in a threepart test, first articulated in Colder u. Jones, 465
U.S. 783 (1984), which requires that the defendant
in question “(1) committed an intentional act, (2)
expressly aimed at the forum state, (3) causing
harm that the defendant knows is likely to be
suffered in the forum state.” See Yahoo! Inc. v. La

42a
Ligue Contre Le Racisme, 433 F.3d 1199, 1206 (9th
Cir. 2006) (en banc). Failing to sufficiently plead
any one of these three elements is fatal to Plaintiff s
attempt to show personal jurisdiction. Brayton
Purcell LLP v. Recordon & Recordon, 606 F.3d 1124,
1128-29 (9th Cir. 2010). Though there are no
requirements that the defendants come into
physical contact with the forum see id. at 1129, the
Supreme Court has held that “the plaintiff cannot
be the only link between the defendant and the
forum.” Walden v. Fiore, - U.S.
134 S.Ct. 1115,
1123 (2014). Further, “mere injury to a forum
resident is not a sufficient connection to the forum.”
Id. at 1125 (emphasis added).
In Judge Koh’s Dismissal Order, the Court
noted that Plaintiffs FAC included six intentional
acts that could suffice for purposes of specific
personal jurisdiction (Dismissal Order at 23), but
found that none of the acts were sufficient to confer
jurisdiction in a California court. (Id. at 23-28) As
the Plaintiff has been given the opportunity to
amend, the Court now engages in an analysis of the
acts Plaintiff contends were committed by each of
the three Defendant groups, as pled in the SAC and
as described further in his briefing, and finds that
none of the acts is purposefully directed at
California such that this Court can exercise
jurisdiction over the Downes, Cartwright, or Sibling
Defendants.
i.

Acts Allegedly Committed by the
Downs Defendants

43a
In his Opposition to the Downes Motion to
Dismiss (ECF 116), Plaintiff argues that his SAC
pleads personal jurisdiction over the Downes
Defendants based on three acts: (1) “the purposeful
direction and targeting of Plaintiff in June of 2009,”
(2) “the knowingly false declaration Downes
submitted to a California Federal Court to Support
the Joint Motion to Dismiss in Rupert I” and (3) the
“extrinsic fraud that was successfully practiced on
Judge Fogel”, during Rupert I. (ECF 116 at 24
(capitalization omitted)).
Plaintiff does not specifically articulate which
acts he alleges amount to Defendants’ “purposeful
direction and targeting” of him in June 2009, but
from a review of his SAC, the Court construes this
to mean the two letters sent by Mr. Downes, in his
capacity representing Susan Bond and Irene Rupert,
to Plaintiff in California. Judge Fogel’s Order has
already held that these two letters are insufficient
to confer jurisdiction. Rupert I, 2010 WL 3618662,
at *4 (“None of Defendants’ alleged conduct [in
sending the letters] has any nexus with California
other than the fact that William happens to reside
in California.”). Plaintiff pleads no new
jurisdictional facts about the letters in his SAC (see
SAC Hlj 59-62), and as such the Court agrees with
Judge Fogel’s finding that the sending of these two
letters fails to amount to purposeful direction
toward California.
Plaintiffs two other personal jurisdiction
allegations describe conduct that took place before
Judge Fogel in Rupert I: a declaration submitted by
Mr. Downes, and the general act of litigating the

44a
case, which Plaintiff contends resulted in the
Downes Defendants practicing “extrinsic fraud” on
the court. (See, e.g., ECF 116 at 24) However,
neither of these activities can reasonably confer
jurisdiction upon the Downes Defendants. Plainly, a
plaintiff cannot sue out-of-state defendants in his
home forum and then contend that activities
undertaken by defendants and their lawyers in that
litigation is “purposefully directed” at that forum
state. In Rupert I, Plaintiff forced Defendants to
appear in California court by virtue of his filing a
lawsuit. The Downes Defendants appeared as
counsel in Rupert I for the purpose of challenging
personal jurisdiction. Defendants succeeded in
having the case dismissed for lack of personal
jurisdiction. It would be downright strange for a
court to exercise personal jurisdiction over a party
based on that party’s conduct, as defendants, in
successfully challenging personal jurisdiction on a
Rule 12(b)(2) motion to dismiss. Such a reading
would permit the conduct of plaintiffs, rather than
the purposeful actions of defendants, to drive the
personal jurisdiction analysis, an approach clearly
rejected by the Supreme Court in Walden v. Fiore.
See 134 S.Ct. 1115, 1125.12
12 In his Opposition to the Downes Defendants’ Motion to
Dismiss, Plaintiff briefly argues that the Defendants have
consented to jurisdiction because they “have not presented a
narrowly focused challenge to personal jurisdiction,” instead
making additional arguments as to why the claims should be
dismissed that go beyond a Rule 12(b)(2) motion to dismiss.
(See Opp. To Downes Mot. to Dismiss at 25) Plaintiff cites no
law for this proposition. A party does not waive a jurisdictional
defense simply because that defense is raised concurrently with
other defenses. See United States v. Ligas, 549 F.3d 497 (7th

45a

As such, none of the actions undertaken by Mr.
Downes in representing Susan Bond and Irene
Rupert is sufficient for this Court to exercise
jurisdiction over him, or his law firm. As such,
Plaintiffs claims against the Downes Defendants
are DISMISSED WITH PREJUDICE.
ii. Acts Allegedly Committed by the
Cartwright Defendants
Plaintiff contends, in his Opposition to the
Cartwright Defendants’ Motion to Dismiss, that Mr.
Whitman and Ms. Johansson have committed a
number of acts with regard to the alleged RICO
conspiracy. Plaintiff argues that these acts confer
upon this Court jurisdiction over the various
Cartwright Defendants. Plaintiff is incorrect.
Specifically, Plaintiff contends that Mr.
Whitman committed nine “RICO predicate acts.”
(See SAC App’x A at 8-12) These acts can be
summarized as (1) serving Plaintiff, in California,
with several documents from the proceedings in
Oregon court, (2) sending an allegedly “forged”
Schedule A from the Samuel Rupert Trust to
Cir. 2008) (“[T]he federal rules permit defendants to
simultaneously seek relief and raise a jurisdictional defense
without waiving that defense.”) (compiling cases); see also
Gates Learjet Corp. Jensen, 743 F.2d 1325, 1330 (9th Cir. 1984).
The Downes Defendants did not seek to dismiss under Rule
12(b)(2) after bringing a motion to dismiss on other grounds.
As such, their jurisdictional defense was raised concurrently
with their other arguments regarding reasons to dismiss this
action, and the Court does not find that they have consented to
jurisdiction before it.

46a
Plaintiff in California, (3) sending several letters to
Plaintiff, at his address in California, regarding the
Oregon proceedings, and (4) engaging in an
allegedly improper ex parte communication with an
Oregon judge regarding the Oregon proceedings.
{See Opp. To Cartwright Mot. to Dismiss at 13-14)
These acts each fall squarely within the type of
communications that Judge Fogel’s Order in Rupert
I found do not confer jurisdiction upon this Court, as
the communications concerned the estate planning
decisions of Oregon trusts and an Oregon
proceeding. Rupert I at *4. As Judge Koh held in
her Dismissal Order, “the fact that Plaintiff received
papers in California does not convert these Oregonbased activities into express aiming at California.”
(Dismissal Order at 26 (finding further that Oregon
law required Defendants to mail notices to Plaintiff
regarding the Oregon proceedings, see Or. Rev. Stat.
§ 130.035 (2010) This Court is presented with no
new information in the SAC or its Appendix A that
would cause it to rule contrary to these two
reasoned orders, which comport with the Supreme
Court’s recent holding in Walden v. Fiore, 131 S.Ct.
1115 (2014).
Plaintiff further contends that Ms. Johansson
committed eleven different “RICO predicate acts,”
which can be summarized as the sending of writs of
garnishment to California and Nebraska, to enforce
an Oregon state court judgment demanding that
Plaintiff pay attorney’s fees. These acts ultimately
resulted in funds being removed from Plaintiffs
checking account. {See SAC App’x A at 14
(discussing RICO Predicate Acts 52-54); see also

47a
SAC 1 114)) Judge Koh’s Dismissal Order has
already held that these actions do not confer
jurisdiction, holding that “any harm which occurred
to Plaintiff occurred during the Oregon Proceedings
when an Oregon Court ordered him to pay
attorney’s fees and costs.” (Dismissal Order at 26)
Plaintiffs contention that the sending of these writs
of garnishment violates the California Sister-State
Money Judgments Act also fails to show personal
jurisdiction. See, e.g., Michael v. New Century Fin.
Servs., - F.Supp.2d-, 2014 WL 4099010, at *8 (N.D.
Cal. Aug. 20, 2014) (citing Menken u. Emm, 503 F.3d
1050 (9th Cir. 2007), for the proposition that “[mjere
allegations that the Defendants have failed to
domesticate a foreign judgment” do not permit a
court to exercise personal jurisdiction over those
defendants).
The Cartwright Defendants are Oregon lawyers
and an Oregon law firm whose contacts with
California were limited to their representation of
clients in Oregon litigation. They did not avail
themselves of California as a forum. Plaintiff has
not shown that their actions amount to the
necessary contacts by which it would be just for the
Cartwright Defendants to be haled into California
court in this litigation. Cf. Sher u. Johnson, 911
F.2d 1357, 1363 (9th Cir. 1990).
As such, the Court GRANTS the Cartwright
Defendants’ Motion to Dismiss, WITH PREJUDICE.
Hi. Acts Allegedly Committed by the
Sibling Defendants

48a
Finally, Plaintiff alleges that his siblings, Susan
Bond and James Rupert, committed myriad acts in
the alleged RICO conspiracy. The Court has
reviewed the entirety of the allegations against
Susan Bond and James Rupert in order to
determine which acts can be considered to be in any
way “directed at” California. The allegations
against Susan Bond can be summarized to include:
(1) the acts comprising “RICO Stage 1,” regarding
Susan’s management of the trust assets; (2) the acts
comprising “RICO Stage 2,” where Susan Bond and
Gile Downes are alleged to have repeated “the Big
Lie” in letters sent to Plaintiff; (3) her actions
during the litigation before Judge Fogel in Rupert I,
comprising “RICO Stage 3”, and (4) her participation
with the Cartwright Defendants in the sending of
documents to Plaintiff in California regarding the
Oregon litigation, comprising “RICO Stage 4.” The
allegations against James Rupert are less
numerous, comprising only (1) the sending of an
email to Plaintiff where he allegedly repeats “the
Big Lie” and expresses his support for Susan’s
actions, and (2) his participation in “obtaining one of
the corrupt Oregon judgments.” (Opp. To Sibling
Mot. to Dismiss at 16)
The Court finds that these activities do not
confer personal jurisdiction over either of the Sibling
Defendants. Many of these allegations have already
been found insufficient in both Rupert I and Judge
Koh’s Dismissal Order. Despite being provided the
opportunity to amend his claims in the SAC in order
to state facts supporting jurisdiction, Plaintiff has
instead mainly re-alleged the same arguments that
have now been twice rejected by judges of this

49a
District. The Court addresses each of Plaintiffs
allegations in turn.13
First, Susan’s actions in managing trust assets
have been found insufficient to confer jurisdiction
upon this Court by both Judge Fogel in Rupert I and
Judge Koh in the Order dismissing the FAC. (See,
e.g., Rupert I at *4; see also Dismissal Order at 2324) The Court agrees with their findings: that the
alleged trust mismanagement took place in Oregon,
and that any alleged emails or letters sent from
Oregon to California were with regard to Oregon
estate planning decisions, undertaken on behalf of
an Oregon resident. (See id. at 24) Plaintiff pleads
no new facts that tie Ms. Bond’s management of the
trust to this forum.
In his SAC and briefing, Plaintiff again
reiterates his argument that Susan “moved” trust
assets to California from Michigan (SAC If 47).
13 In his Opposition to the Sibling Defendants’ Motion to
Dismiss, Plaintiff argues that “judicial estoppel should stop the
Sibling Defendants from being heard to argue that Oregon is
an alternative forum” in which this case can be heard. (Opp. To
Sibling Mot. to Dismiss at 21) (original capitalization omitted).
Plaintiff contends in his briefing, as he did at oral argument,
that he is civilly dead in Oregon. (See, e.g., id. at 22) Plaintiff,
however, misapprehends the nature the Court’s jurisdictional
inquires. The Court needs to determine, for Plaintiffs §
1965(b) jurisdiction argument, whether any other forum could
possibly hale all Defendants before it. See LeDuc, 814 F.Supp.
820, 826. Having found that Oregon could possibly have
jurisdiction over all Defendants in this action, the Court then
must engage in a specific jurisdiction inquiry with regard to the
Downes, Cartwright, and Sibling Defendants. There is no
reason why judicial estoppel would cause this Court to find
personal jurisdiction over any of the Defendants in California.

50a
Plaintiff failed, however, to engage in any way with
the finding in Judge Koh’s Order, which held that
Plaintiff did not show how the trust assets were
“located” in California. (Dismissal Order at 14-15)
In his SAC, Plaintiff reasserts that the trust assets,
at the time held by Beacon Investment Company,
were transferred to three accounts held by Charles
Schwab Institutional, which was “located solely in
San Francisco, California.” (SAC 47) A single
allegation that a Defendant opened an investment
account with a company located in California is not
sufficient to subject a party to personal jurisdiction
in California. Plaintiff cites no law supporting this
proposition, and the Court is aware of none. Courts
addressing general jurisdiction over corporate
entities have concerned themselves with whether
those entities hold bank accounts in the forum state
as one piece of the jurisdictional inquiry. See, e.g.,
James M. Brogan, Personal Jurisdiction After
Goodyear and McIntyre: One Step Forward; One
Step Backward? 34 U. Penn. J. Int’t L. 811, 816
(2013) (discussing relevant facts in general
jurisdiction inquiries over corporate defendants). In
this case, however, the Court is engaged in a specific
jurisdiction inquiry, regarding a non-corporate
Defendant, and is faced with only the allegation that
several investment accounts were opened with a
company based in California. Plaintiff does not
allege that Susan Bond traveled to California to
open the accounts, nor even that Susan Bond knew
that Charles Schwab was a California corporation
when the accounts were opened. He further does
not cite case law in support of his argument. As
such, Plaintiff again fails to show any reason why
the act of opening these investment accounts

51a
suffices for purposes of haling Susan Bond into any
California court.
Second, as this Court has already found above,
any actions Susan allegedly took alongside Mr.
Downes in regard to sending letters to Plaintiff that
included “the Big Lie” were found by Judge Fogel in
Rupert I not to confer jurisdiction. Rupert I at *4.
This Court agrees with Judge Fogel, and finds that
exercising jurisdiction over Susan Bond because of
her role in these letters would not comport with
Walden v. Fiore, 134 S.Ct. 1115, 1122 (“[The]
minimum contacts analysis looks to the defendant’s
contacts with the forum State itself, not the
defendant’s contacts with persons who reside there . .
. .[T]he plaintiff cannot be the only link between the
defendant and the forum.” (emphasis added).
Third, any actions undertaken by Susan Bond
before Judge Fogel in Rupert I, including the filing
of her declaration in that action (see SAC App’x A at
6 (discussing RICO Predicate Acts 26-28)), fail to
confer jurisdiction for the same reasons as noted
above with regard to the Downes Defendants — it
would require a tortured reading of the law of
personal jurisdiction to allow Plaintiff to hale Susan
Bond into court in this District merely because she
filed a declaration and participated in litigating a
successful motion to dismiss for lack of personal
jurisdiction after Plaintiff sued her in this district.
Responding to a lawsuit, particularly when that
response contends that the court lacks personal
jurisdiction over the party, is not purposeful
availment. Cf. Walden, 134 S.Ct. 1115, 1123
(describing the personal jurisdiction inquiry as

52a
focused on the “intentional conduct by the defendant
that creates the necessary contacts with the forum”).
Here, Plaintiff created Defendants’ contacts with the
forum by virtue of filing suit here.
Fourth, and finally, Plaintiff contends that
Susan’s participation in the sending of documents
regarding the Oregon litigation, including the
allegedly fraudulent Schedule A, writs of
garnishment, and various pleadings, confers
jurisdiction. They do not, for the reasons articulated
above regarding Ms. Johansson. (See supra at 21)
The only acts Susan Bond committed in
California were those attendant to her
responsibilities in trust management in Oregon, in
response to litigation undertaken in Oregon courts,
or to challenge the lack of personal jurisdiction in
this District. None of these contacts were “expressly
aimed” at California sufficient to meet the
requirements of the Colder effects test. The focus,
pursuant to the Supreme Court’s ruling in Walden,
must be on the forum, not the plaintiff. Here,
Plaintiff is attempting to have his own actions drive
the jurisdictional analysis, which they simply
cannot do. Walden, 134 S.Ct. 1115, 1126 (“[I]t is the
defendant, not the plaintiff or third parties, who
must create contacts with the forum state.”)
(emphasis added).
The allegations against James Rupert, in
contrast with those against Susan Bond, are new in
the SAC. Though new, they are not persuasive.
First, Plaintiff alleges that James Rupert sent him
an email in which he repeated “the Big Lie” and

53a
expressed his support for Susan Bond’s actions in
the Oregon court proceedings. (SAC App’x A at 12
(RICO Predicate Act 42); SAC ^ 94) Courts have
been clear that the sending of a single email, or even
a series of emails, by itself, does not amount to
purposeful availment. See, e.g., Barrett v.
Catacombs Press, 44 F.Supp.2d 717, 729 (E.D. Pa.
1999) (finding that two emails sent from a defendant
to a plaintiff resident in the forum “d[id] not show
purposeful availment”); Machulsky v. Hall, 210
F.Supp.2d 531, 542 (D.N.J. 2002) (holding that
“minimal correspondence” via email “does not
constitute sufficient minimum contacts “for
purposes of personal jurisdiction). Though the
Supreme Court reserved the question of virtual
contacts and their effects on personal jurisdiction in
Walden, a recent circuit court addressing this
question has found that “[t]he connection between
the place where an email is opened and a lawsuit is
entirely fortuitous,” and that “as a practical matter,
email does not exist in any location at all.” Adu.
Tactical Ordinance Sys., LLC v. Real Action
Paintball, Inc., 751 F.3d 796, 802-03 (7* Cir. 2014).
This Court by no means holds that emails can never
give rise to purposeful availment of a forum, but
finds that in this case, where an undated letter was
sent as an attachment to an email, from a defendant
to a forum-resident plaintiff, that such a singular
contact does not constitute purposeful availment.
Second, the allegation that James Rupert
“participated in obtaining one of the corrupt Oregon
judgments” does not give rise to jurisdiction for the
reasons offered above regarding Ms. Johansson and
Ms. Bond. (See, e.g., supra at 21, 23) Plaintiff does

54a
not plead that James Rupert undertook any actions
directed at California with regard to his
participation as a party in this Oregon case, Case
No. CV11050251 (SAC t 92), but instead claims that
“James fully supported all of the Oregon litigation
activities” and “ratified” those activities in the email
he sent to Plaintiff discussed above. (See id. at ^ 94)
The Sibling Defendants have not purposefully
availed themselves of California as a forum, and as
such the exercise of jurisdiction over them would be
improper under Calder u. Jones and Walden v.
Fiore. As such the Court GRANTS the Sibling
Defendants’ Motion to Dismiss, WITH PREJUDICE.
C. Downes Defendants’ Motion for
Sanctions
The Downes Defendants bring a Motion for
Sanctions, pursuant to Rule 11, alleging that
Plaintiffs SAC “adds no new factual allegations
concerning the [Downes] Defendants’ ties to this
jurisdiction.” (Mot. for Sanctions at 7) Claiming
that “a reasonable inquiry” would have revealed to
Plaintiff that his claims are barred in this Court for
a lack of personal jurisdiction, the Downes
Defendants request that this Court award them
monetary sanctions and impose upon Plaintiff a prefiling order. (Id. at 19)14 Defendants’ Motion is
14 Defendants also argue that Plaintiffs “history of vexatious
litigation” and prior placement on the California Vexatious
Litigant list is relevant to the Motion for Sanctions. (See, e.g.,
Reply, ECF 135 at 3) Plaintiff states that he had been removed
from the California Vexatious Litigant list as of May 29, 2013.

55a
similar to a motion for sanctions preciously denied
by Judge Koh with regard to the first round of
motions to dismiss Plaintiffs FAC. (ECF 101)
Rule 11 “provides for the imposition of sanctions
when a filing is frivolous, legally unreasonable, or
without factual foundation, or is brought for an
improper purpose.” See Estate of Blue v. Cnty. Of
Los Angeles, 120 F.3d 982, 983 (9th Cir. 1997).
However, “what is objectively reasonable for a pro se
litigant and for an attorney may not be the same.”
Yack v. Wash. Mut. Inc., 2008 WL 3842918, at *2
(N.D. Cal. Aug. 14, 2008).
The Court ultimately declines to award
sanctions in this instance. Plaintiff was granted
leave to amend in Judge Koh’s Dismissal Order.
Though this Court’s Order dismissing Plaintiffs
action is the third Order granting motions to
dismiss for lack of personal jurisdiction, Plaintiff
has attempted in each circumstance to amend his
complaints to allege new facts. He has ultimately
been unsuccessful, and this Court is dismissing the
entirety of his action, with prejudice.
Judge Koh’s prior Order expressed a concern
that Plaintiffs “repeated lawsuits may suggest that
Plaintiff is bringing this action in ‘bad faith’ in
response to the California and Oregon judgments”
(Opp. to Mot. for Sanctions at 14) The Court is not persuaded
that Plaintiffs former placement on the Vexatious Litigant list
is relevant to this Motion for Sanctions, and the Court declines
to engage with the Downes Defendants’ argument that Plaintiff
obtained his removal from the list by “omitting from the record
at least five other cases to which he was a party.” (Reply at 3)

56a
issued against him. (Order Denying Defs.’ Mot. for
Sanctions, ECF 101 at 19 n.l) The undersigned
shares Judge Koh’s concern. Plaintiff obviously
disagrees with the outcomes in Rupert I and the
Oregon litigation. He has expressed in numerous
documents before this Court his belief that “the Big
Lie” has prevented him from receiving his rightful
disbursement of his parents’ trust assets and from
fulfilling the role of successor trustee. Plaintiffs
arguments have been unsuccessful, and the Court
now dismisses his action with prejudice. California
courts simply do not have jurisdiction over
Plaintiffs claims - nor will they, even if Plaintiff
sought, as he suggested during oral argument and
in his briefing on the Motion for Sanctions, to add
new “RICO Stage 6” Defendants regarding the
instant proceedings. (See Opp. to Mot. for Sanctions
at 18)
However, any attempt by Plaintiff to refile this
action against these parties in this District, or
another California court, having been told by three
different judges that these courts lack personal
jurisdiction over three sets of Defendants, would
show bad faith, harassment, and a desire to
needlessly increase the cost of litigation for the
parties involved, such that an appropriate sanction,
including monetary sanctions, would likely be
warranted.
IV. ORDER
Plaintiff clearly disagrees with at least four
other courts’ rulings regarding his parents’ trust
and their management. Plaintiff, however, fails to

57a
state a claim against the Zusman Defendants and
this Court lacks personal jurisdiction over the
Downes, Cartwright, and Sibling Defendants. For
the foregoing reasons, IT IS HEREBY ORDERED
that:
1.

The Zusman Defendants’ Motion to
Dismiss is GRANTED, WITH PREJUDICE.

2.

The Downes Defendants’ Motion to
Dismiss is GRANTED, WITH PREJUDICE.

3.

The Cartwright Defendants’ Motion to
Dismiss is GRANTED, WITH PREJUDICE.

4.

The Sibling Defendants’ Motion to
Dismiss is GRANTED, WITH PREJUDICE.

5.

The Downes Motion for Sanctions is
DENIED.

The Clerk shall close the file.
IT IS SO ORDERED.
Dated: September 22, 2014
Is/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

58a
APPENDIX D - Order Denying Plaintiffs
Motion For Relief From Final Judgment,
USDC for the Northern District of California,
Case No. 5:12-cv-05292-BLF; Filed January 6,
2015
No. 12-cv-05292 BLF
WILLIAM RUPERT
v.
SUSAN BOND, et al.
Order Denying Plaintiffs Motion For Relief
From Final Judgment
[Re: ECF 161]
Plaintiff William Rupert moves for relief from
final judgment related to this Court’s September 22,
2014 Order dismissing the above-captioned case for
lack of personal jurisdiction.1 All Defendants
oppose. The Court finds this motion appropriate for

1 The Court had not yet entered judgment in this action when
Plaintiff filed this motion. Civil Local Rule 7-9(a) requires a
party to seek leave of court before filing a motion for
reconsideration if judgment has not been entered. See, e.g.,
Samet v. Procter & Gamble, 2014 WL 1782821, at *2 (N.D. Cal.
May 5, 2014). However, Plaintiff, who is pro se, filed his
motion within 28 days of the Court granting the dismissal with
prejudice. It is reasonable to believe that Plaintiff felt it
necessary to file this motion within 28 days of that dismissal
order so that he could seek reconsideration of the Court’s
ruling. The Court thus adjudicates the motion as filed and
briefed.

59a
determination without oral argument, see Civil L.R.
7-l(b), and DENIES Plaintiffs motion.
I.

LEGAL STANDARDS

A court can, pursuant to Federal Rule of Civil
Procedure 59(e), alter or amend a judgment upon a
showing of one of four grounds: “(1) the motion is
necessary to correct manifest errors of law or fact;
(2) the moving party presents newly discovered or
previously unavailable evidence; (3) the motion is
necessary to prevent manifest injustice; or (4) there
is an intervening change in controlling law.” Turner
u. Burlington N. Santa Fe R.R., 338 F.3d 1058, 1063
(9th Cir. 2003). A motion brought under Rule 59 is
not an opportunity for a party to re-litigate the
claims that were before the Court prior to judgment,
but is instead an “extraordinary remedy, to be used
sparingly in the interests of finality and
conservation of judicial resources.” Kona Enterps.,
Inc. v. Estate of Bishop, 229 F.3d 877, 890 (9th Cir.
2000) (“A Rule 59€ motion may not be used to raise
arguments or present evidence for the first time
when they could reasonably have been raised earlier
in the litigation,” and should not be granted “absent
highly unusual circumstances.”).2
II. DISCUSSION
A. An Intervening Change in Controlling
Law

2 Plaintiff initially also sought relief under Rule 60(b) in his
motion, but withdrew that argument in his Reply. See ECF
169 at 5-6.

60a
Plaintiff argues that a September 2, 2014 case
from the Ninth Circuit, Levitt v. Yelp! Inc., 765 F.3d
1123 (9th Cir. 2014), “clarifies the standards for civil
extortion and attempted extortion” and would
permit Plaintiff to amend his SAC to allege
violations of the Hobbs Act.
Plaintiffs argument is without merit. Plaintiffs
ability to state a Hobbs Act claim is immaterial to
the Court’s finding that it lack personal jurisdiction
over the parties due to their insufficient contacts
with California. Even more critically, Plaintiff does
not articulate any way in which Levitt changes the
Ninth Circuit’s standards for stating a Hobbs Act
violation. In Levitt, the Ninth Circuit simply
applied the relevant case law of the circuit,
including Sosa v. DirecTV, Inc., 437 F.3d 923 (9th
Cir. 2006), to the facts before it. Levitt thus does not
set forth a new rule with regard to the Hobbs Act
and, as such, is not an “intervening change in law.”
See, e.g., United States v. Iron Mountain Mines, Inc.,
2010 WL 1854118, at *3 (E.D. Cal. May 6, 2010).
B. Manifest Errors of Law
Plaintiff claims that the Court made nine
separate manifest errors of law in its Dismissal
Order. See Mot. at 8-21. A manifest error of law is
not merely one in which the party disagrees with
the Court, but instead is the “wholesale disregard,
misapplication, or failure to recognize controlling
precedent on the part of the court.” Oto v. Metro.
Life Ins. Co, 224 F.3d 601, 606 (7th Cir. 2000) (“A
manifest error is not demonstrated by the
disappointment of the losing party.”). Plaintiff

61a
essentially challenges three of the Court’s legal
determinations: (1) that the Defendants were not
subject to personal jurisdiction in California, (2) the
Court’s application of the Noerr-Pennington doctrine
to this case, and (3) Susan Bond’s status as trustee.
1.

Personal Jurisdiction

Plaintiff makes four arguments relevant to the
Court’s determination that the Defendants were not
subject to personal jurisdiction in California.
First, Plaintiff argues that Defendant Susan
Bond consented to jurisdiction in California.
Plaintiff, in his Opposition to the Sibling
Defendants’ motion to dismiss, see ECF 121, did not
once argue that Ms. Bond consented to jurisdiction
in California. This is simply a new argument about
personal jurisdiction with regard to one Defendant,
and a Rule 59(e) motion is not an appropriate
avenue to obtain post-judgment re-argument of
claims that were, or could have been, raised earlier
in the litigation. See, e.g., NL Indus., Inc. v.
Commercial Union Ins. Co., 935 F.Supp. 513, 515-16
(D.N.J. 1996).
Second, Plaintiff contends that the Court’s
application of the three-prong Calder effects test for
personal jurisdiction was in error, and is
inconsistent with Schwarzenegger v. Fred Martin
Motor Co., 374 F.3d 797 (9th Cir. 2004). The Court
did not commit manifest error in its determination
that the Sibling, Downes, and Cartwright
Defendants did not purposefully direct their suitrelated activities toward California. See, e.g.,

62a
Dismissal Order at 26 (citing Sher v. Johnson, 911
F.2d 1357, 1363 (9th Cir. 1990)). A Rule 59(e)
motion is not an opportunity for Plaintiff to obtain
reconsideration because he disagrees with
the Court’s application of controlling law, but rather
is available only if the Court manifestly disregards
the law. See Oto, 224 F.3d 601, 606 (“A manifest
error is not demonstrated by the disappointment of
the losing party”).
Third, Plaintiff contends that the Court erred in
relying on Walden v. Fiore, 134 S.Ct. 1115 (2014),
arguing that this Court has “misunderst[ood] the
limited holdings that were made in Walden.” Mot.
at 17. The Court did not commit manifest error in
finding that Walden precluded the Court from
exercising jurisdiction over parties based on the
actions of the Plaintiff. See, e.g., Dismissal Order at
23, 24.3 Moreover, the Court’s adherence to Walden
was limited, and directed to a specific issue
regarding personal jurisdiction. The Court
primarily applied the Calder effects test in
evaluating the SAC. See Dismissal Order at 22-30.

3 On January 5, 2015, Plaintiff filed a “Second Statement of
Recent Decisions” which included three opinions from other
district courts in which Walden v. Fiore was cited and where a
motion to dismiss for lack of personal jurisdiction was denied.
See ECF 171. The Court has reviewed these three cases, and
finds that they do not alter its personal jurisdiction
determination, and in fact provide support for its interpretation
of the Supreme Court’s holding in Walden, as each case
includes a discussion of Walden’s finding that it is only a
defendant’s purposeful contact with the forum that gives rise to
personal jurisdiction.

63a
Fourth, Plaintiff argues that the Court erred in
its reliance on Menken v. Emm, 503 F.3d 1050, 1061
(9th Cir. 2007). Plaintiff argues that Menken is
inapplicable to this case because “the Menken v.
Emm case is one in which specific personal
jurisdiction was found to exist.” Mot. at 19. The
Court cited Menken in the context of Michael v. New
Century Financial Services, 2014 WL 4099010 (N.D.
Cal. Aug. 20, 2014), and did not err in describing the
Ninth Circuit’s determination that allegations a
defendant failed to domesticate a foreign judgment,
standing alone, do not permit a court to exercise
personal jurisdiction over those defendants. See
Dismissal Order at 25-26.
The Court therefore finds that none of its
determinations with regard to personal jurisdiction
constitute manifest error.
2.

Noerr-Pennington Immunity

Plaintiff makes three arguments regarding
application of the Noerr-Pennington doctrine. First,
Plaintiff argues that the Court misconstrued and
misapplied the Noerr-Pennington doctrine with
regard to parties’ immunity from suit for conduct
engaged in during prior litigation of this family
dispute. The Court finds that did not make a
manifest error of law in its determination that
Defendants were entitled to immunity under NoerrPennington for their statements to the court during
the pendency of Rupert I. See, e.g., Dismissal Order
at 14 (citing Professional Real Estate Investors, Inc.
v. Columbia Pictures Indus., 508 U.S. 49, 60 n.5
(1993)); see also Freeman v. Lasky, Haas & Cohler,

64a
410 F.3d 1180, 1184 (9th Cir. 2005) (holding that
Noerr-Pennington provides protection to defensive
pleadings “because asking a court to deny one’s
opponents’ petition is also a form of petition”).
Second, Plaintiff argues that the Court
committed manifest error in adjudicating the “sham
defense” issue at the pleadings stage. The Ninth
Circuit, however, is clear that Noerr-Pennington
immunity may be decided on the pleadings. See
Freeman, 410 F.3d 1180, 1184.
Third, Plaintiff contends that Nunag-Tanedo u.
East Baton Rouge Parish School Board, 711 F.3d
1136 (9th Cir. 2013), demands that NoerrPennington immunity not be decided at the
pleadings stage. Plaintiff s reading of NunagTanedo is incorrect. As the Court has stated above,
in certain circumstances Noerr-Pennington
immunity can be determined on the pleadings, see
Freeman, 410 F.3d 1180, 1184, and Nunag-Tanedo
did not discuss, let alone overrule, Freeman.
The Court therefore finds that none of its
determinations with regard to the Noerr-Pennington
doctrine constitute manifest error.
3.

The Trusteeship

Finally, Plaintiff makes two arguments
regarding Susan Bond’s status as trustee. First,
Plaintiff argues that the Court “doesn’t seem to
appreciate the difference between a trustee de jure,
or a trustee de facto, and an intermeddling trustee
de son tort.” Mot. at 11. Second, he argues that

65a
King v. Johnson, 178 Cal. App. 4th 1488 (2009), gives
him “standing to act, on his own behalf, against a
former trustee de son tort.” Mot. at 13.
Neither the nature of the trustee, nor the
question of whether or not Plaintiff is a beneficiary
with standing to bring certain claims, have any
bearing on the jurisdictional question on which the
Court decided the motion to dismiss. See, e.g.,
Dismissal Order at 26-28. As such, a motion for
reconsideration is an inappropriate avenue by which
to argue these two legal claims. See, e.g., Turner,
338 F.3d 1058, 1063 (stating that a Rule 59(e)
motion is only appropriate to dispute erroneous
legal or factual determinations “upon which the
judgment is based”). Moreover, the Court did not
misunderstand the differences between these types
of trustees, and King u. Johnston does not in any
way discuss personal jurisdiction. See generally 178
Cal. App. 4th 1488.
The Court finds that most of Plaintiff s legal
arguments are merely an attempt to once again
argue the merits of his case. A motion brought
under Rule 59(e) is not an appropriate avenue to
make such arguments. See, e.g., Kona Enterprises,
229 F.3d 877, 890 (9th Cir. 2000).
C. Manifest Errors of Fact
Plaintiff argues that the “Court’s Order shows it
is confused about what is being alleged in the SAC,”
Mot. at 21, and alleges two manifest errors of fact.
Neither argument is persuasive.

66a
First, Plaintiff argues that the Court
misunderstands what he calls the “Big Lie.” The
Court identified the “Big Lie” as “the statement that
Irene Rupert, and not Plaintiff, was the trustee of
the Samuel Rupert Trust.” Dismissal Order at 4.
Plaintiff argues that instead, the “Big Lie” is that
Irene Rupert “remain[ed]” the successor trustee to
the Samuel Rupert Trust. Mot. at 21. These
statements are not factually inconsistent. The
Court noted, as Plaintiff does in his Motion for
Relief, that the “Big Lie” was stated on June 10,
2009, and involved the nature of the Samuel Rupert
trusteeship. See Dismissal Order at 4; see also Mot.
at 21. The Court did not commit manifest error in
its description of the “Big Lie,” nor did the
description impact the Court’s determination that
there was no personal jurisdiction over Defendants.
See Turner, 338 F.3d 1058, 1063 (stating that a Rule
59(e) motion is only appropriate to dispute
erroneous legal or factual determinations “upon
which the judgment is based”).
Second, Plaintiff contends that the Court
misconstrued and misunderstood Judge Fogel’s
prior Dismissal Order in Rupert I. Mot. at 21-22.
Plaintiff alleges that Judge Fogel “found [that] there
were intentional acts, and that they had been
purposefully direct at the plaintiff, in California.”
Id. at 22. But Judge Fogel’s Order explicitly found
that the Colder effects test had not been satisfied,
and that personal jurisdiction could not be exercised

67a
over the defendants in Rupert 1.4 Plaintiff s
statement is therefore incorrect. The Court thus did
not err in its description of Judge Fogel’s Order. See
Rupert I, 2010 WL 3618662, at *4 (N.D. Cal. Sept. 9,
2010).
D. To Prevent Manifest Injustice
A manifest injustice is any “error in the trial
court that is direct, obvious and observable, such as
a defendant’s guilty plea that is involuntary.” See
In re Oak Park Calabasas Condominium Ass’n, 302
B.R. 682, 683 (Bankr. C.D. Cal. 2003) (defining
manifest injustice under Rule 59(e)). Neither of
Plaintiffs arguments under the manifest injustice
prong of Rule 59(e) is persuasive.
First, he alleges, as he has repeatedly
throughout this litigation, that Judge Fogel was
“misled” about what he terms the “crucial Hanson v.
Denckla jurisdictional factors (identify (sic) of
trustee, location of trustee, and location of trust
property)” during Rupert I. See Mot. at 22. To
support this claim, Plaintiff cites to the court
reporter’s transcript from the hearing on the motion
to dismiss before Judge Fogel. See id. at 23-24. The
partial transcript cited by Plaintiff, however,
contains only a brief colloquy between Judge Fogel
and Mr. Zusman regarding the Calder effects test,
and does not alter the Court’s ruling. Plaintiff
further does not state how this transcript shows any
4 Susan Bond, Irene Rupert, Gile Downes, and the Downes law
firm were the only Defendants named by Plaintiff in Rupert I.
Ms. Rupert, now deceased, is not named as a Defendant in this
case.

68a
“manifest injustice” in this Court’s Dismissal Order.
Instead, his argument is yet another attempt to re­
litigate something that has already been before the
Court multiple times, which is simply not permitted
under Rule 59(e). See Kona Enterps., Inc., 229 F.3d
877, 890.
Second, Plaintiff contends that amendment is
possible, and that the Court “refusjed] to allow
plaintiff to fully discuss his ability to amend” at its
hearing on his motion. Mot. at 24. On the contrary,
at the hearing on the motions to dismiss, which
lasted two hours and ten minutes, cf. ECF 159,
Plaintiff was given a number of opportunities to
state ways he could amend the SAC. Plaintiff now
makes only a bare assertion that he can “amend to
better explain how the alleged frauds upon the
courts deprived the proceedings before Judge Fogel,
and in Oregon, of their legitimacy.” Id. The Court
has already undertaken a review of Rupert I and
found no support for Plaintiffs allegation that Judge
Fogel was misled, or that he relied on any of the
alleged misrepresentations in deciding the motion to
dismiss. See Dismissal Order at 15-16. Judge
Fogel’s Order clearly makes no reference to the
location of the trustee or trust assets, or of Irene
Rupert as the alleged successor trustee. As such,
even if Plaintiff were given a fourth opportunity to
amend his already prolix 110-page SAC, such
amendment would be futile. See, e.g., Plymouth
Cnty., Iowa ex rel. Raymond v. MERSCORP, Inc.,
287 F.R.D. 449 (N.D. Iowa 2012) (denying under
Rule 59(e) a request to amend when the motion did
not contain any indication of the substance of the

69a
proposed amendment, and where any amendment
would be futile).
III. ORDER
Plaintiffs Motion for Relief is DENIED. The
Court shall enter judgment accordingly.
IT IS SO ORDERED.
Dated: January 6, 2015
/s/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

70a
APPENDIX E - Judgment; USDC for the
Northern District of California,
Case No. 5:12-cv-05292-BLF;
Filed January 6, 2015
No. 12-cv-05292 BLF
WILLIAM RUPERT
v.
SUSAN BOND, et al„
JUDGMENT
On September 22, 2014, the Court granted with
prejudice Defendants’ motions to dismiss for lack of
personal jurisdiction. ECF 160. On January 6,
2015, the Court denied Plaintiffs motion for
reconsideration.
Pursuant to Federal Rule of Civil Procedure 58,
the Court ENTERS judgment in favor of Defendants
and against Plaintiff. The Clerk of Court shall close
the file in this matter.
IT IS SO ORDERED.
Dated January 6, 2015
/s/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

71a

APPENDIX F - Order Denying Plaintiffs
Second Motion to Alter or Amend Judgment;
USDC for the Northern District of California;
Case No. 5:12-cv-05292-BLF;
Filed March 27, 2015
No. 12-cv-05292 BLF
WILLIAM RUPERT
v.
SUSAN BOND, et al„
Order Denying Plaintiffs Second Motion to
Alter or Amend Judgment
[Re: ECF174]
On September 22, 2014, the Court granted, with
prejudice, Defendants’ motions to dismiss in the
above-captioned action. ECF 160. Thereafter, on
October 20, 2014, Plaintiff filed a motion with the
Court, pursuant to Federal Rule of Civil Procedure
59(e), to alter or amend the Court’s judgment. ECF
161. Though the Court had not yet issued final
judgment in the action, the Court adjudicated
Plaintiffs motion under Rule 59(e) as requested,
stating:
The Court had not yet entered judgment in
this action when Plaintiff filed this motion.
Civil Local Rule 7-9(a) requires a party to
seek leave of court before filing a motion for
reconsideration if judgment has not been

72a
entered. See, e.g., Samet v. Procter &
Gamble, 2014 WL 1782821, at *2 (N.D. Cal.
May 5, 2014). However, Plaintiff, who is pro
se, filed his motion within 28 days of the
Court granting the dismissal with prejudice.
It is reasonable to believe that Plaintiff felt
it necessary to file this motion within 28
days of that dismissal order so that he could
seek reconsideration of the Court’s ruling.
The Court thus adjudicates the motion as
filed and briefed.
ECF 172 at 1 n.l.
The Court denied Plaintiffs motion on January
6, 2015, and issued judgment that same day. See
ECF 172, 173. Plaintiff has now filed a second
motion to alter or amend the judgment, seeking
relief pursuant to Federal Rules of Civil Procedure
59(e) and 60(b). See ECF 174. This motion mainly
reasserts the arguments Plaintiff previously made
in his first motion to alter or amend the judgment.
Plaintiffs motion is essentially a motion for
reconsideration of his prior motion for
reconsideration - something that is not
contemplated in the rules of civil procedure or this
district’s local rules. He provides the Court no case
citation for the appropriateness of this request. In
his motion, Plaintiff concedes that the Court has
adjudicated his request to reconsider the dismissal
orders. See Mot. at 3 (“Plaintiffs motion for
reconsideration . . . was denied.”).
Plaintiff does not get to twice seek
reconsideration of the Court’s dismissal orders

73a
merely because the Court adjudicated his
improperly filed Rule 59(e) motion and then issued
separate judgment thereafter. Nor does he get to
seek reconsideration of the Court’s order on his
motion for reconsideration. Rule 59(e) is an
“extraordinary remedy, to be used sparingly in the
interests of finality and conservation of judicial
resources.” Kona Enterps., Inc. v. Estate of Bishop,
229 F.3d 877, 890 (9th Cir. 2000). Neither of those
interests is furthered by permitting a plaintiff to
bring a second motion under Rule 59(e). Nor can
Plaintiff attempt to garner relief through a
repackaging of his motion to alter or amend
judgment as one brought under Rule 60(b), because
“[t]he denial of a motion for reconsideration under
Rule 59(e) is construed as a denial of relief under
Rule 60(b), because “[t]he denial of a motion for
reconsideration under Rule 59(e) is construed as a
denial of relief under Rule 60(b).” McDowell v.
Calderon, 197 F.3d 1253, 1255 n.3 (9th Cir. 1999)
(citing Pasatiempo by Pasatiempo v. Aizawa, 103
F.3d 796, 801 (9th Cir. 1996)); Barber v. Hawaii, 42
F.3d 1185, 1198 (9th Cir. 1994) (“In addition, a
denial of a motion for reconsideration under Federal
Rule of Civil Procedure 59(e) is construed as one
denying relief under Rule 60(b).”).
Plaintiff also contends that this second motion
seeks to assert several new arguments not raised in
his prior motion. See, e.g., Reply to Zusman Opp.,
ECF 181 at 8-11. But it is precisely a desire to
prevent multiple motions for reconsideration from
being filed that gives rise to this Circuit’s rule that
the denial of a motion for reconsideration under
Rule 59(e) also serves to deny relief under Rule

74a
60(b). See, e.g., McDowell at 1255. As such, the
Court DENIES Plaintiffs motion. Plaintiff may not
seek further reconsideration.
IT IS SO ORDERED.
Dated: March 27, 2015
/s/ Beth Labson Freeman
BETH LABSON FREEMAN
United States District Judge

e

75a
APPENDIX G - Order Granting Motion to
Dismiss for Lack of Personal Jurisdiction,
USDC for the Northern District of California,
Case No. 5:09-cv-02758-JF {Rupert I)
Filed September 9, 2010
No. 5:09-cv-02758-JF
WILLIAM T. RUPERT
v.
SUSAN BOND, et al.
Order1 Granting Motion To Dismiss For
Lack Of Personal Jurisdiction
[Re: Doc. No. 14]
Defendants moved to dismiss the instant action
for lack of personal jurisdiction pursuant to Federal
Rule of Civil Procedure 12(b)(2). The Court has
considered the moving and responding papers and
the oral argument presented at the hearing. For the
reasons discussed below, the motion will be granted.
I. BACKGROUND
This case arises out of a dispute between two of
the three adult siblings regarding control of their
parents’ assets following the death of their father.
Plaintiff William Rupert (“William”), proceeding pro
se, alleges the following facts in the operative first
amended complaint (“FAC”):
1 This disposition is not designated for publication in the official
reports.

76a

Samuel Rupert (now deceased) and his wife
Irene Rupert (“Irene”) lived in Michigan for many
years. On November 1, 1995, they had estate plans
prepared by Alan Price (“Price”), a Michigan
attorney. The estate plans included revocable
trusts. Under the terms of the trusts, Samuel and
Irene were to serve as their own trustees; upon the
death of either, the assets of both trusts would be
allocated to a Family Trust for the benefit of the
surviving spouse and the three children; oldest child
Susan Bond (“Bond”), middle child William, and
third child James Rupert (“James”). The surviving
spouse was to receive all net income from the
investment assets of the Family Trust until death,
at which point the three children would become the
successor beneficiaries entitled to equal
distributions of all remaining assets of the Family
Trust. If a time came when the surviving parent
could not manage his or her affairs, the three
children were to be co-successor trustees.
On January 26, 2004, Samuel and Irene asked
Price to modify their estate plans to designate
William as the first nominated child to succeed them
as both successor trustee and personal
representative/executor. William lives near Santa
Cruz, California. Samuel sent William copies of
some of the estate documents; William did not
examine the documents closely, but put them in a
file cabinet.
Samuel and Irene subsequently moved to
Oregon, near Portland, to be near Susan and her
husband. In May 2008, Samuel and Irene signed

77a
powers of attorney making Susan their health care
agent and attorney-in-fact for non-trust assets.
William did not know about these documents.
Samuel died on October 12, 2008 after falling in
the shower and hitting his head. Susan
immediately took over managing all of Irene’s
personal and financial affairs. She misled William
as to the scope of her authority; William had not
examined the documents Samuel had sent him in
2004, and thus did not realize that the estate
planning documents included the trust provisions or
that he was the first nominated child to succeed
Irene as trustee. When William told Susan that he
had estate planning documents from 2004, Susan
told him that she had superseding documents
putting her in charge. William believed her and did
not press the matter at that time.
Irene had her ninetieth birthday in January
2009. William attended a surprise party for Irene in
Oregon, organized by Susan. At that time, Susan
told William that she was removing a high-yield
bond portfolio from the management of a Michigan
investment firm fired by their parents and giving it
over to management by her close fried Kenny Dillon.
The parents had hired Dillon in the past but had
fired him because his investments did not yield
enough money, at which point the parents had hired
the Michigan firm.
Over the next few months, William and Susan
had several disputes about who should be in charge
of Irene’s finances. Meanwhile, Irene was calling
William, complaining that Susan was not nice to her

78a
and was keeping her in the dark regarding her
(Irene’s) finances. Susan made several comments
about how she did not like Irene. Irene told William
that when she called Susan, Susan’s husband Bob
would not put Susan on the phone and told Irene to
talk to the staff at her assisted living facility instead
of bothering Susan. At some point Irene told
William that Susan had sold the high-yield bond
portfolio (discussed above) at a loss. William started
asking Susan for an accounting of assets.
At that point, in May 2009, William located the
legal documents he’d received in 2004. He realized
for the first time that the estate plan included the
living trusts and that he was the first nominated
successor trustee. William sent numerous letters to
Susan accusing her of misconduct and asking her to
document her legal authority. In June 2009,
William received a letter from Irene stating that he
had antagonized the whole family and that if he did
not stop sending letters she would cut him out of her
will. Shortly, thereafter, William received a letter
from Gile Downes (“Downes”) of Schulte, Anderson,
Downes, Aronson & Bittner, PC, an Oregon law firm
purporting to represent Irene. Downes stated that
William’s prospective inheritance rights had been
reduced and that he had been replaced as successor
trustee of all of the trusts; that Susan was the
successor trustee; that William’s prospective
inheritance rights would be reduced further if he
persisted in writing letters and seeking information;
and that William’s prospective inheritance rights
would be eliminated completely unless William
signed an enclosed modification of trust agreement
by June 19, 2009.

79a
William filed the instant lawsuit on June 22,
2009, and filed the operative FAC on July 23, 2009.
-He names Susan, Irene, Downes, and Downes’ law
firm as Defendants, asserting claims for: (1)
intentional interference with economic relations
(prospective inheritance and lost successor trustee
compensation); (2) conspiracy to interfere with
economic relations by replacing William as successor
trustee and beneficiary, and by looting the Family
Trust; (3) punitive damages; and (4) declaratory
relief.
II. DISCUSSION
Because no federal statute governs personal
jurisdiction, this Court applies the law of the forum
state. See Love v. Associated Newspapers, 611 F.3d
601, 608-09 (9th Cir. 2010). California’s long-arm
statute is co-extensive with federal standards; thus
this Court may exercise personal jurisdiction if
doing so comports with federal constitutional due
process. Id. at 609. “For a court to exercise over a
nonresident defendant, that defendant must have at
least ‘minimum contacts’ with the relevant forum
such that the exercise of jurisdiction ‘does not offend
traditional notions of fair play and substantial
justice.’” Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797, 801 (9th Cir. 2004) (quoting
International Shoe Co. v. Washington, 326 U.S. 310,
316 (1945)).
“There are two forms of personal jurisdiction
that a forum state may exercise over a nonresident
defendant - general jurisdiction and specific
jurisdiction.” Boschetto v. Hansing, 539 F.3d 1011,

80a
1016 (9th Cir. 2008). William concedes that none of
the defendants has property interests in California,
does business in California or has the kind of
regular contacts with California sufficient to give
rise to general personal jurisdiction. However,
William contends that Defendants’ conspiracy to
deprive him of significant economic benefit
(inheritance and trustee compensation), combined
with Defendants’ written and telephonic
communications to him in California in furtherance
of that conspiracy, are sufficient to give rise to
specific personal jurisdiction over Defendants.
The Ninth Circuit has articulated a three-prong
test for analyzing specific jurisdiction:
(1) The non-resident defendant must
purposefully direct his activities or
consummate some transaction with the
forum or resident thereof; or perform some
act by which he purposefully avails
himself of the privilege of conducting
activities in the forum, thereby invoking the
benefits and protections of its laws;
(2) the claim must be one which arises out
of or relates to the defendant’s forum-related
activities; and
(3) the exercise of jurisdiction must comport
with fair play and substantial justice, i.e., it
must be reasonable.
Yahoo! Inc. u. La Ligue Contre Le Racisme Et
L’Antisemitisme, 433 F.3d 1199, 1206 (9th Cir.

81a
2006) (quoting Schwarzenegger, 374 F.3d at
802).
The first prong, sometimes referred to as the
“purposeful availment” prong, “may be satisfied by
purposeful availment of the privilege of doing
business in the forum; by purposeful direction of
activities at the forum; or by some combination
thereof.” Id. “Purposeful availment” is treated
differently in tort and contract cases. Id. In tort
cases, the court inquires “whether a defendant
‘purposefully direct[s] his activities’ at the forum
state, applying an ‘effects’ test that focuses on the
forum in which the defendant’s actions were felt,
whether or not the actions themselves occurred
within the forum.” Id. (quoting Schwarzenegger,
374 F.3d at 803). In civil cases, the court inquires
“whether a defendant ‘purposefully avails itself of
the privilege of conducting activities” or
“consummate [s] [a] transaction” in the forum,
focusing on activities such as delivering goods or
executing a contract. Id. (quoting Schwarzenegger,
374 F.3d at 802).
Because this is a tort case, the Court applies the
“effects” test. “The effects test is satisfied if (1) the
defendant committed an intentional act; (2) the act
was expressly aimed at the forum state; and (3) the
act caused harm that the defendant knew was likely
to be suffered in the forum state.” Love, 611 F.3d at
609. “Where a defendant’s ‘express aim was local,’
the fact that it caused harm to the plaintiff in the
forum state, even if the defendant knew that the
plaintiff lived in the forum state, is insufficient to

82a
satisfy the effects test.” Id. (quoting
Schwarzenegger, 374 F.3d at 807).
Here, Defendants did communicate with
William, who resides in California. However, the
communications concerned the estate planning
decisions of Irene, an Oregon resident. Susan’s
alleged mistreatment of Irene and alleged
mismanagement of trust funds occurred in Oregon.
Downes and the members of his law firm are Oregon
attorneys; their communications with William
related solely to their representation of Irene under
Oregon law. None of Defendants’ alleged conduct
has any nexus with California other than the fact
that William happens to reside in California. Under
these circumstances, the Court concludes that the
“effects” test is not satisfied, and that it would be
unreasonable for it to exercise personal jurisdiction
over Defendants.
III. ORDER
(1) Defendants’ motion to dismiss for lack of
personal jurisdiction is GRANTED; and
(2) The Clerk of the Court shall close the file.
DATED: 9/9/2010

/s/ Jeremy Fogel______
JEREMY FOGEL
United States District Judge

83a
APPENDIX H - Relevant Statutory Provisions
And Judicial Rules; 18 U.S.C. § 1964(a)(b)(c)(d),
18 U.S.C. § 1965(a)(b)(c)(d)
18 U.S.C. § 1964 - Civil Remedies
“(a) The district courts of the United States
shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter by
issuing appropriate orders, including, but not
limited to: ordering any person to divest himself
of any interest, direct or indirect, in any
enterprise; imposing reasonable restrictions on
the future activities or investments of any
person, including, but not limited to, prohibit
any person from engaging in the same type of
endeavor as the enterprise engaged in, the
activities of which affect interstate or foreign
commerce; or ordering dissolution or
reorganization of any enterprise, making due
provision for the rights of innocent persons.”
“(b) The Attorney General may institute
proceedings under this section. Pending final
determination thereof, the court may at any
time enter such restraining orders or
prohibitions, or take such other actions,
including the acceptance of satisfactory
performance bonds, as it shall deem proper.”
“(c) Any person injured in his business or
property by reason of a violation of section 1962
of this chapter may sue therefor in any
appropriate United States district court and
shall recover threefold the damages he sustains

84a
and the cost of the suit, including a reasonable
attorney’s fee, except that no person may rely
upon any conduct that would have been
actionable as fraud in the purchase or sale of
securities to establish a violation of section
1962. The exception contained in the preceding
sentence does not apply to an action against any
person that is criminally convicted in connection
with the fraud, in which case the statute of
limitations shall start to run on the date on
which the conviction becomes final.”
“(d) A final judgment or decree rendered in
favor of the United States in any criminal
proceeding brought by the United States under
this chapter shall estop the defendant from
denying the essential allegations of the criminal
offense in any subsequent civil proceeding
brought by the United States.”

18 U.S.C. § 1965 - Venue and Process
“(a) Any civil action or proceeding under this
chapter against any person may be instituted in
the district court of the United States for any
district in which such person resides, is found,
has an agent, or transacts his affairs.”
Ill

85a
“(b) In any action under section 1964 of this
chapter in any district court of the United States
in which it is shown that the ends of justice
require that other parties residing in any other
district be brought before the court, the court
may cause such parties to be summoned, and
process for that purpose may be served in any
judicial district of the United States by the
marshal thereof.”
“(c) In any civil or criminal action or
proceeding instituted by the United States
under this chapter in the district court of the
United States for any judicial district, subpenas
issued by such court to compel the attendance of
witnesses may be served in any other judicial
district, except that in any civil action or
proceeding no such subpoena shall be issued for
service upon any individual who resides in
another district at a place more than one
hundred miles from the place at which such
court is held without approval given by a judge
of such court upon a showing of good cause.”
“(d) All other process in any action or
proceeding under this chapter may be served on
any person in any judicial district in which such
person resides, is found, has an agent, or
transacts his affairs.”

